<html>
<title> - NOMINATIONS OF PAUL COMPTON, ANNA MARIA FARIAS, NEAL RACKLEFF, RICHARD ASHOOH, ELIZABETH ERIN WALSH, AND CHRISTOPHER CAMPBELL</title>
<body><pre>[Senate Hearing 115-122]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 115-122


NOMINATIONS OF PAUL COMPTON, ANNA MARIA FARIAS, NEAL RACKLEFF, RICHARD 
         ASHOOH, ELIZABETH ERIN WALSH, AND CHRISTOPHER CAMPBELL

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                          THE NOMINATIONS OF:

Paul Compton, of Alabama, to be General Counsel, Department of Housing 
                         and Urban Development

                               __________

Anna Maria Farias, of Texas, to be Assistant Secretary for Fair Housing 
   and Equal Opportunity, Department of Housing and Urban Development

                               __________

   Neal Rackleff, of Texas, to be Assistant Secretary for Community 
 Planning and Development, Department of Housing and Urban Development

                               __________

Richard Ashooh, of New Hampshire, to be Assistant Secretary for Export 
                 Administration, Department of Commerce

                               __________

  Elizabeth Erin Walsh, of the District of Columbia, to be Assistant 
Secretary for Global Markets and Director General of the United States 
         and Foreign Commerical Service, Department of Commerce

                               __________

  Christopher Campbell, of California, to be Assistant Secretary for 
           Financial Institutions, Department of the Treasury

                               __________

                             JULY 18, 2017

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                    Affairs
                                    
                                  

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                    
                                    

                Available at: http: //www.govinfo.gov/
                
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-854 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e384938ca3809690978b868f93cd808c8ecd">[email&#160;protected]</a> 
                          
                
                


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

                      Elad Roisman, Chief Counsel

                 Matt Jones, Professional Staff Member

            Laura Swanson, Democratic Deputy Staff Director

               Colin McGinnis, Democratic Policy Director

           Beth Cooper, Democratic Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                     Cameron Ricker, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)
                                  
                                  
                            C O N T E N T S

                              ----------                              

                         TUESDAY, JULY 18, 2017

                                                                   Page

Opening statement of Chairman Crapo..............................     1

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2
    Senator Shelby
        Prepared statements......................................    33

                                WITNESS

Statement of Orrin G. Hatch, a U.S. Senator from the State of 
  Utah...........................................................     4

                                NOMINEES

Paul Compton, of Alabama, to be General Counsel, Department of 
  Housing and Urban Development..................................     5
    Prepared statement...........................................    33
    Biographical sketch of nominee...............................    34
    Responses to written questions of:
        Senator Brown............................................    98
        Senator Shelby...........................................    99
        Senator Reed.............................................    99
        Senator Menendez.........................................   100
Anna Maria Farias, of Texas, to be Assistant Secretary for Fair 
  Housing and Equal Opportunity, Department of Housing and Urban 
  Development....................................................     6
    Prepared statement...........................................    44
    Biographical sketch of nominee...............................    45
    Responses to written questions of:
        Senator Brown............................................   101
        Senator Reed.............................................   102
        Senator Menendez.........................................   102
Neal Rackleff, of Texas, to be Assistant Secretary for Community 
  Planning and Development, Department of Housing and Urban 
  Development....................................................     8
    Prepared statement...........................................    59
    Biographical sketch of nominee...............................    61
    Responses to written questions of:
        Senator Brown............................................   104
        Senator Shelby...........................................   105
        Senator Reed.............................................   106
        Senator Menendez.........................................   108
        Senator Heitkamp.........................................   109
Richard Ashooh, of New Hampshire, to be Assistant Secretary for 
  Export Administration, Department of Commerce..................    10
    Prepared statement...........................................    70
    Biographical sketch of nominee...............................    71
    Responses to written questions of:
        Senator Brown............................................   111
        Senator Menendez.........................................   111
Elizabeth Erin Walsh, of the District of Columbia, to be 
  Assistant Secretary for Global Markets and Director General of 
  the United States and Foreign Commerical Service, Department of 
  Commerce.......................................................    11
    Prepared statement...........................................    84
    Biographical sketch of nominee...............................    86
    Responses to written questions of:
        Senator Brown............................................   112
        Senator Menendez.........................................   112
Christopher Campbell, of California, to be Assistant Secretary 
  for Financial Institutions, Department of the Treasury.........    12
    Prepared statement...........................................    92
    Biographical sketch of nominee...............................    94
    Responses to written questions of:
        Senator Brown............................................   113
        Senator Shelby...........................................   114
        Senator Reed.............................................   114
        Senator Menendez.........................................   115

              Additional Material Supplied for the Record

Letters submitted in support of the nomination of Paul Compton...   117
Letter submitted in support of the nomination of Anna Maria 
  Farias.........................................................   122
Letters submitted in support of the nomination of Neal Rackleff..   123

 
NOMINATIONS OF PAUL COMPTON, ANNA MARIA FARIAS, NEAL RACKLEFF, RICHARD 
         ASHOOH, ELIZABETH ERIN WALSH, AND CHRISTOPHER CAMPBELL

                              ----------                              


                         TUESDAY, JULY 18, 2017

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:03 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    This morning we will consider the nominations of six 
individuals to serve in key leadership posts within the 
Administration.
Welcome to all of you, and congratulations on your nomination 
to these important positions. I see friends and family behind 
you today, and we welcome them here as well.
    The nominees before us are: Paul Compton, to be HUD General 
Counsel; Anna Farias, to be HUD Assistant Secretary for Fair 
Housing and Equal Opportunity; Neal Rackleff, to be HUD 
Assistant Secretary for Community Planning and Development; Mr. 
Richard Ashooh, to be Assistant Secretary of Commerce for 
Export Administration; Elizabeth Erin Walsh, to be Assistant 
Secretary of Commerce for Global Markets and Director-General 
of the United States and Foreign Commercial Service; and 
Christopher Campbell, to be Assistant Secretary of the Treasury 
for Financial Institutions.
    Each of these nominees brings diverse life and work 
experience and expertise which will play an important role in 
shaping national policy and advancing economic opportunities 
for Americans.
    Mr. Compton has dedicated his entire 30-year legal career 
to affordable housing and community development and has 
developed an intimate familiarity with HUD's various programs. 
This will enable him, as General Counsel of HUD, to provide 
effective counsel to Secretary Carson and be a valuable 
resource for other HUD program administrators.
    Ms. Farias, who grew up in public housing in Crystal City, 
Texas, later returned to run the Crystal City housing authority 
and, leading by example, lived in one of the units that she 
managed. She also served twice as a HUD Deputy Assistant 
Secretary and has dedicated much of her legal career to 
developing diverse communities and fighting discrimination in 
housing.
    Mr. Rackleff, as well, has on-the-ground community 
development experience, directing the Houston Housing and 
Community Development Department and serving as General Counsel 
for the Housing Authority of the city of Houston.
    Mr. Ashooh served for over two decades in the aerospace 
industry, ensuring the success of programs that protect our 
warfighters, particularly in the electronic warfare space. This 
experience should equip him well to develop policies and 
regulations for the Bureau of Industry and Security which 
handles our Nation's critical export control system.
    Ms. Walsh has had an extensive international career in both 
the public and private sector, including experience at the 
State Department and the United Nations. In her position, she 
would assist United States firms in entering foreign markets as 
well as promote investment into the United States.
    Mr. Campbell serves as Staff Director for the Senate 
Finance Committee, where he has developed a strong reputation 
of policy expertise, and an ability to work with both sides of 
the aisle to get results done. Chris has been instrumental in 
the enactment of significant recent legislative accomplishments 
in trade, health care, customs reform, and tax extenders. 
Senators from both sides of the aisle have looked to Chris for 
his policy insights and strategic know-how.
    As a member of the Finance Committee myself, I know Chris 
well, and I know that he also understands how the Senate and 
the Treasury can work together to enact meaningful reform.
    Passing bipartisan legislation to promote economic growth 
is one of my top priorities in this Congress, and if he is 
confirmed, I look forward to working closely with Chris and the 
other Members of this Committee on getting legislation enacted 
into law.
    I urge all of my colleagues to confirm all six of you 
today. Thank you.
    The Committee will continue its work to push nominations 
through as expeditiously as possible so that our agencies have 
all the personnel they need to tackle the critical issues 
facing our country.
    Once again, congratulations to all of you on your 
nominations to these very important offices, and thank you for 
your willingness to serve.
    Senator Brown.

               STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman, and I second the 
Chairman's comments about thanking you for your willingness to 
serve. We all appreciate that. I am thrilled to see you here 
today. I am glad that this Administration, after months and 
months of bungling nominees and indifference and criticism of 
Federal employees and attacks on the character of lots of 
people, is finally taking its job more seriously and actually 
nominating public servants to carry out the work that you all 
pledge to do and you all want to do. And, again, I thank you 
for putting your private sector jobs aside and private sector 
work to serve the public. Thank you for that.
    Thanks to your families especially because their lives may, 
in fact, change, too, and they will be part of the work you do 
in so many ways. So thank you for that.
    Mr. Chris Campbell has been nominated by President Trump to 
serve as Assistant Secretary for Financial Institutions at the 
Department of Treasury. This position is responsible for 
developing and coordinating the Treasury's policies regarding 
financial institutions.
    My support for Wall Street reform is clear. I am very 
concerned about efforts coming out of the White House to roll 
back important rules we put in place after the financial crisis 
to protect consumers and prevent more taxpayer bailouts. We 
have seen collective amnesia in this town about what happened 
to workers who lost jobs, homeowners who lost homes, renters 
who were evicted, and so many others, seniors and others, who 
lost their lifetime saving. There is a collective amnesia in 
this body and on this Committee from time to time, far too 
often, about what happened.
    I have known Mr. Campbell for several years. I appreciate 
his long history of working together with Senator Crapo and me 
and others, Senator Menendez on this Committee and others who 
serve both on the Finance Committee and now serve on Banking, 
have appreciated your work to foster bipartisanship on the 
Finance Committee. Thank you, Mr. Campbell, for that.
    If confirmed, I hope he will do the same in this role and 
be a strong voice to protect and strengthen the Dodd-Frank 
rules that promote financial stability, promote safety and 
soundness, strong consumer protections, and not just adopt 
industry talking points.
    We will be considering three nominees for the Department of 
Housing and Urban Development today. All of these positions are 
important for fulfilling HUD's mission of creating strong, 
sustainable, inclusive communities and quality affordable homes 
for all. HUD and its programs are critical to families and 
communities in Ohio and across the country.
    If confirmed as General Counsel, Mr. Paul Compton--thank 
you for your willingness to serve--will help set the tone for 
HUD's approach to legislation, to renter and homeowner 
protections, and to enforcement.
    If confirmed as Assistant Secretary for Fair Housing and 
Equal Opportunity, Ms. Anna Maria Farias would be responsible 
for implementing and enforcing HUD's fair housing laws.
    Mr. Neal Rackleff is an affordable housing and community 
development attorney who recently led the city of Houston's 
Housing and Community Development Department. The President 
nominated him to serve as the Assistant Secretary for the 
Office of Community Planning and Development, which administers 
the Community Development Block Grant, HOME, and Homeless 
Assistance Programs. Your work is especially important, Mr. 
Rackleff.
    We will be considering two nominees for the Department of 
Commerce.
    Mr. Richard Ashooh has been nominated as Assistant 
Secretary to assist and advise the Under Secretary of Commerce 
on the development of policies affecting export administration 
issues. This position provides direction to and management of 
the national security, nonproliferation, foreign policy, 
national defense, and
strategic industrial resource functions at the Bureau of 
Industry and Security. This is a critical, though often 
overlooked, national security role in our Government.
    And Ms. Erin Walsh has been nominated to serve as Assistant 
Secretary--welcome--for Global Markets and Director General of 
the U.S. Foreign and Commercial Service, where she would direct 
the activities of the International Trade Administration's 
export promotion programs. We know American products made by 
American workers can compete with any in the world if given the 
chance. That is what this position will do, give American 
companies the chance.
    That gives me a moment to touch on something Senator 
Heitkamp and I have worked unrelentingly on, and that is the 
Export-Import Bank. We continue to be disappointed by this 
Administration's back-and-forth--not your issue, I understand, 
but this is a public forum--for it/against it on the Ex-Im 
Bank, first on reauthorization, then the issues of 
appointments, then not appointing, then appointing somebody who 
seems to want to emasculate the Bank, then backing of, and now 
seeming to be supportive again of that nominee. All of those 
things matter to us on this Committee because we know for you 
to do your job well, you also need a vibrant financial sector 
that actually can help U.S. companies export.
    This position for which Ms. Walsh was nominated provides 
strategic direction and management oversight for a network of 
trade professionals located around the world, responsible for 
American firms' entry into foreign markets and expansion of 
exports, and for promoting foreign direct investment in the 
United States.
    So congratulations, all of you. Again, thank you for your 
unselfish willingness to serve our country.
    Thank you.
    Chairman Crapo. Thank you very much.
    We just noticed that Senator Hatch, the Chairman of the 
Finance Committee and someone who is very interested in Mr. 
Campbell, has just arrived. I would ask him to come up. Would 
you like to take a seat right here? Senator, please, right 
here. And if you would like to make a comment at all, we would 
certainly appreciate it. We are just doing introductions right 
now.

 STATEMENT OF ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE OF 
                              UTAH

    Senator Hatch. Well, I have known Chris Campbell for quite 
a long time. He has been a tremendous staff leader on the 
Finance Committee, among other things, and we have traveled the 
country together. He is honest, straightforward, very 
dedicated, intelligent, about everything you would want in 
somebody working with Treasury. He is just a very, very fine 
fellow.
    So I am happy to be here and am grateful that you have 
given me this opportunity to say a few words.
    Chairman Crapo. Well, thank you, Senator. And I know you 
have got another hearing going and other things that will take 
your time, so any time you can spend with us we appreciate.
    And I know, Chris, this is one of the parts of the job to 
have the spotlight put on you when your boss shows up to give 
you a special introduction, but that is, I think, very 
appropriate.
    Before we do the testimony, I would like to issue an oath, 
so would each of you please stand and raise your right hand? Do 
you swear or affirm that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God? Please say, ``I do.''
    Mr. Compton. I do.
    Ms. Farias. I do.
    Mr. Rackleff. I do.
    Mr. Ashooh. I do.
    Ms. Walsh. I do.
    Mr. Campbell. I do.
    Chairman Crapo. And do you agree to appear and testify 
before any duly constituted Committee of the Senate?
    Mr. Compton. I do.
    Ms. Farias. I do.
    Mr. Rackleff. I do.
    Mr. Ashooh. I do.
    Ms. Walsh. I do.
    Mr. Campbell. I do.
    Chairman Crapo. Thank you. You can take your seats.
    Your written statement will be made a part of the record in 
its entirety. Before you begin, I invite you to introduce your 
family, if you choose to. And, again, before I move to you, Mr. 
Compton, to start, I want to remind all of my colleagues once 
again that we have 5 minutes for the questioning period, and I 
will promise to honor my 5 minutes and encourage you to honor 
it as well. That also applies to you and your statements, those 
of you who are testifying.
    We like to try to keep the Committee on time as we are 
always bumping up against schedules.
    And, with that, Mr. Compton, please proceed.

 STATEMENT OF PAUL COMPTON, OF ALABAMA, TO BE GENERAL COUNSEL, 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Compton. Thank you, Chairman Crapo, Ranking Member 
Brown, and this entire Committee for the opportunity to testify 
before you today. I am honored to have been nominated by the 
President to be the General Counsel of the Department of 
Housing and Urban Development and, if confirmed, to have the 
privilege to work with Secretary Carson.
    But I want to begin, Chairman, as you invited, to introduce 
my wife of almost 30 years, Dana Compton; our three children, 
Katie, Anne, and Jay; and Katie's husband, Cameron Pulsifer, 
who is making his first trip to the Nation's capital for this 
visit.
    Mr. Chairman, when I was in law school at the University of 
Virginia, I had the distinct honor of visiting with Justice 
Lewis Powell, who had just retired from the Supreme Court and 
was spending a semester at the law school. When I asked him 
where I should practice law, his response was: ``Go somewhere 
you can make a difference.''
    I followed that advice. I returned to my native Alabama, 
where I have practiced with the same law firm, Bradley Arant 
Boult Cummings, for 28 years. Back in the early years, as a 
young
attorney, I was initially attracted to the banking area of 
practice. Increasingly, though, I found myself focusing on 
housing issues. It proved to be a natural fit. I realized I 
could make a profound
difference by using the law to help create shelter and security 
for vulnerable people while builders and investors at the same 
time reinforced the local economy.
    I jumped at the chance when asked to find a way for a local 
bank to be an equity partner in a planned apartment building 
for low-income housing residents in Tuscaloosa. It was a novel 
question at the time. I succeeded--with results that were 
gratifying--and my career took on a new emphasis.
    Over the next several years, I represented that bank in 70 
transactions as it grew to be a regional institution, creating 
more than 5,000 units of affordable housing throughout the 
southeastern United States. Since then, I have worked on 
hundreds more affordable housing transactions, with other 
investors, developers, lenders, and public housing authorities 
in public-private partnerships that benefited low-income 
residents.
    I have often noted that the complexity of transactions goes 
up exponentially with the number of programs and parties that 
are involved. And some of these transactions were indeed 
enormously complicated, but we almost always found a way to 
succeed. I encouraged clients to think of themselves as repeat 
players, to focus on their long-term reputation, and to look 
for win-win solutions. I think because of this approach, I was 
tapped to become the outside General Counsel to the Alabama 
Affordable Housing Association.
    Which brings me to the present day and my nomination to 
serve as HUD's next General Counsel. I look back at Justice 
Powell's advice to me all those years ago, and I cannot help 
but think I am still heeding it to this day.
    HUD is a place where I can make a difference for our fellow 
citizens. If confirmed, I will strive each day during my tenure 
to ensure that the Department and its 8,000 dedicated employees 
operate in a legal and ethical manner. I will work to apply the 
law thoughtfully, vigorously, and as Congress intended. And I 
pledge to work with all the Members of this Committee to find 
solutions to the Nation's housing challenges and to eliminate 
barriers to affordable housing.
    Mr. Chairman, I am grateful to this Committee for holding 
this hearing on my nomination, and I look forward to addressing 
your questions.
    Chairman Crapo. Thank you, Mr. Compton.
    Ms. Farias.

   STATEMENT OF ANNA MARIA FARIAS, OF TEXAS, TO BE ASSISTANT 
SECRETARY FOR FAIR HOUSING AND EQUAL OPPORTUNITY, DEPARTMENT OF 
                 HOUSING AND URBAN DEVELOPMENT

    Ms. Farias. Thank you, Chairman Crapo, Ranking Member 
Brown, and all the distinguished Members of this Committee.
    I would like to thank President Trump for nominating me to 
be Assistant Secretary for Fair Housing and Equal Opportunity 
and Secretary Carson for his strong support of my nomination.
    But I would also like to recognize the most important 
person in my life--my mom, Ofelia Gutierrez. She is not with us 
today. She is 89, she is disabled, but she is watching us. I am 
an only child. All of my cousins are working, which is exactly 
where I want them. I will just give them a summary version of 
what happens here today.
    But today I would like to recognize the Honorable Kim 
Kendrick--she is the former Assistant Secretary for Fair 
Housing and Equal Opportunity nominated by former President 
George W. Bush--and my fellow nominees here on the panel. And 
if we are confirmed, I am looking forward to working with all 
of them.
    The mission at HUD is to provide access to safe, affordable 
housing to all Americans, and my job would be the chief 
enforcer of the Nation's fair housing laws. I am fully, 
strongly committed to those laws. FHEO leads the Nation in the 
development, enforcement, and public understanding of the Fair 
Housing Act.
    I come before you with 20 years of experience in the 
Federal Government, including 8 at HUD. But, most importantly, 
you need to know where I was before those 20 years. I am a 
product of the Fair Housing Act, even though I got to the 
housing projects in 1963, 5 years before that law passed. I am 
the daughter of a single mother with a third-grade education, a 
domestic, working 6 \1/2\ days a week, earning between $12 and 
$20 per week. The one thing my mother always said was, ``You 
need to get an education so that you can do something 
differently than I am doing. I know that as a domestic, my job 
is honorable and honest. I just want something different.''
    I saw how much she sacrificed for me, and I quickly 
realized that, for me, hard work meant success, not just 
survival.
    As the high school valedictorian, I had a choice, and I 
selected Boston University, who gave me a full 4-year 
scholarship, and once again there I was blessed to come across 
someone who really had my best interest at heart. He was a 
young philosophy professor who became my mentor, and he is 
still my mentor. His name: William J. Bennett.
    When he became Secretary of Education, I gave up a safe 
legal career in the Government to go work by his side, and I 
can assure you there was never a dull moment working for 
William J. Bennett.
    In between Administrations, I did the one thing I always 
said I was not going to do. I went back home to run the housing 
authority, and I agreed to be among the first ones to live in 
the housing while I was there. The housing commissioners 
assigned me to what was then called ``Project Terror.'' It was 
the site of murders, rapes, child prostitution, child 
pornography, and drug dealing. My job was to clean it up.
    I stayed there 6 years, thinking that I could do it in 6 
months, and I was successful. And that is because the majority 
of the tenants wanted the same thing for their children and 
grandchildren that my mother had wanted for me as a child: 
safety and an opportunity for an education.
    As a result of our work together, we won over 12 national 
awards of merit, including several for Section 3. And in 2000, 
I was inducted into the Texas Women's Hall of Fame for my work 
at the housing authority.
    Today I am very proud to be the Chair of the Board of 
Regents of the Texas Woman's University, once again getting 
always back to education.
    Mr. Chairman, FHEO is an extremely important office to 
millions of Americans. If confirmed, my approach will be 
exactly what it has always been: apply the statute, the rules, 
and the facts in enforcing housing laws vigorously and in an 
impartial manner. And I pledge to work in a bipartisan manner 
with this Committee and Congress to meet the housing challenges 
facing our Nation.
    I thank the Members of this Committee for this great honor 
and opportunity to appear before you today, and I stand ready 
to answer your questions.
    Chairman Crapo. Thank you, Ms. Farias.
    Mr. Rackleff.

          STATEMENT OF NEAL RACKLEFF, OF TEXAS, TO BE
  ASSISTANT SECRETARY FOR COMMUNITY PLANNING AND DEVELOPMENT, 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Rackleff. Thank you, Chairman Crapo, Ranking Member 
Brown, and all the Members of the Committee for inviting me to 
testify today.
    I am delighted to have my wife of 29 years, the lovely 
Christa Rackleff, with me; and my daughters, Eve and Karen, who 
are here with me today, two of our four children. Our other two 
children, Stephen and Annie, and our son-in-law, Brett, were 
unable to make it. My wife is the pillar of strength in our 
family. She is my best friend and in every single way she is my 
better, and I am so grateful for her. My family is truly the 
most important thing to me in time and eternity.
    Mr. Chairman, I am honored to be nominated to serve as 
Assistant Secretary of Community Planning and Development for 
the Housing and Urban Development Department.
    For over 20 years I have worked at the intersection of the 
public and private sectors, doing real estate development 
focused on resurrecting ailing communities and providing high-
quality housing for hardworking, good people who, despite their 
best efforts, are still in need.
    I started on this path as a young city attorney in the mid-
1990s. Downtown Houston was in trouble. Property values were 
declining and population was fleeing to the suburbs. Under the 
direction of a visionary mayor, I served on the team that 
successfully implemented public-private partnerships to 
redevelop historic downtown properties and revitalize a public 
housing complex that had been mired in litigation for years.
    Houston not only turned around, but came roaring back, 
after these projects truly ignited a downtown renaissance. I 
was blessed to learn from some of the brightest legal and real 
estate experts in the city's history. We used private sector 
creativity and innovation to achieve results with the public 
sector that neither sector--the public or private--could 
accomplish alone.
    Public-private partnerships can accomplish incredible 
change. For example, a terribly blighted apartment complex 
plagued a Houston inner-city community. For more than 10 years, 
local, State, and Federal officials tried to condemn and 
demolish the structure, but a wily slum lord successfully 
slipped from their grasp.
    My team took a different approach. We analyzed the market 
forces at work, then partnered with the local school district 
and used funds, from a tax increment finance district and the 
school district, to purchase and demolish the slum property. I 
am really proud to say that an elementary school stands today 
on the former epicenter of blight that was dragging down an 
entire neighborhood.
    My faith has been a formative factor in focusing on 
families in need. I served as the bishop of an inner-city 
congregation for many years and saw firsthand how hard so many 
people struggle to meet basic needs. And I became convinced 
that most people struggling with poverty truly desire a hand up 
rather than a handout. So I decided to do what I could to be 
part of the solution in helping people become more self-
reliant.
    I left the practice of law at Locke Lord and went back to 
the city of Houston and ended up running the Department of 
Housing and Community Development. When I took the reins at the 
department, it was struggling. Looming over it were 102 HUD 
findings and over $80 million in potential fines. But a great 
team pulled
together and not only cleared every finding, but we transformed 
our department into one of the finest and most effective in the 
Nation.
    During my tenure the department financed completion of 
7,800 high-quality affordable multifamily housing units; 
another 2,700 are in progress, under construction. And we 
assisted 1,700 single-family homeowners with reconstruction of 
hurricane-damaged homes, financial assistance for low-income 
homebuyers, and emergency home repairs.
    I can tell you that Houston truly has an unstoppable ``can-
do'' spirit. During this same timeframe, the city, Harris 
County, the for-profit and nonprofit sectors all partnered with 
HUD to alleviate homelessness. Within a few years, we reduced 
chronic homelessness by more than 70 percent and became the 
first major city in the country to effectively eliminate the 
homelessness of veterans.
    I will also tell you that I have become convinced that the 
democratization of data is key to more effective governance. As 
an example, in the aftermath of severe flooding, I worked with 
a coalition of faith-based and nonprofit groups to alleviate 
suffering in Houston. We mined the city's fire, police, and 
public works databases to generate GIS maps, enabling churches 
and civic groups to locate and serve the elderly and disabled 
who desperately needed help. We then utilized an open-source 
social media platform to share data and avoid duplication of 
efforts as the various philanthropic groups worked together in 
the same space.
    I have been truly amazed to see the successes that are 
possible in ameliorating suffering when people put aside 
differences and ideologies in a united effort to help their 
neighbors. Love has animated the work I have been a part of, 
and I truly love the people I serve.
    Mr. Chairman, Committee, thank you very much for this 
opportunity to appear before you. I welcome your questions.
    Chairman Crapo. Thank you, Mr. Rackleff.
    Mr. Ashooh.

STATEMENT OF RICHARD ASHOOH, OF NEW HAMPSHIRE, TO BE ASSISTANT 
  SECRETARY FOR EXPORT ADMINISTRATION, DEPARTMENT OF COMMERCE

    Mr. Ashooh. Thank you, Mr. Chairman and Ranking Member 
Brown and to the rest of the Committee. I am honored to be 
before you today, and I am grateful to the President and the 
Secretary of Commerce for their confidence in me to serve in 
this capacity.
    I would love to introduce the family I have that is here. 
My wife of 25 years is behind me, Laurie. It only feels like 2, 
but it has been 25. And my daughter, Emma, who is here as a 
delegate for the other four children that could not be here--
Sophie, Elias, Maya, and Sam. And I also welcome Angeline, who 
is Emma's sister in residence here as her roommate.
    I would also like to acknowledge the memory of a former 
boss, mentor, and friend named Warren Rudman, whom I got to 
know on these very premises years ago as a staffer for him. His 
example of fidelity to the country, his colleagues, and the 
Constitution still stands as guiding principles in my own life.
    Everyone in America is familiar with the Boston Tea Party. 
But you would have to come from New Hampshire as I do to be 
familiar with the Pine Tree Riot. Briefly, the Pine Tree Riot 
was a pre-revolutionary protest in New Hampshire against the 
British Crown's attempt to regulate the colonial pine tree 
trade. This is significant because these mighty pine trees made 
the best ships' masts, and the King reserved the best of them 
for the Royal Navy, allowing Great Britain to project power all 
over the world. The colonists rejected this intrusion into 
their economy and livelihoods, and the Pine Tree Riot was one 
of several incidents that led the way to Revolution.
    Why this obscure history lesson? Well, these pine trees 
were the turbofan engines of their day--technology that was 
vital both to national security and civilian commerce. The 
Crown's behavior was in effect an export control--one that did 
not work out very well for the King. The point is we need to 
weigh the national security implications of our technology 
trade, and it has been with us since before we were a Nation.
    The position to which I have been nominated sits at the 
intersection where national security, technology, and the 
economy meet. Never has this juncture been more critical. The 
number and nature of the threats facing our Nation, from state 
and nonstate actors alike, has grown. Meanwhile, the pace of 
technology has not only accelerated dramatically; it has 
shifted. The national security establishment once led areas of 
technology development that are now driven by the commercial 
sector. The responsibility for eliminating the vulnerabilities 
to our Nation presented by these dynamic shifts, while 
encouraging robust trade in the technology sector, rests 
squarely with the Bureau of Industry and Security. The workload 
at BIS--which has increased and will continue to do so--further 
reflects these trends.
    Both my desire and readiness to serve in this capacity is a 
product of a career spent advancing key elements of this 
mission. Early in my career as a Senate staffer, I was 
privileged to work on issues concerning technology transfer, in 
particular to adversary nations. It is worth noting that the 
global parties of concern at that time--specifically, China, 
Russia, and Iran--occupy more or less the policy priorities BIS 
faces today.
    After more than two decades of experience in the aerospace 
industry, where I was able to work on behalf of our Nation's 
most advanced technology enterprises, the strictures of the 
U.S. export control regime were, and still are, well known to 
me. I understand better than most the challenges and 
necessities associated with technology development, believing 
that our success as a Nation is underpinned by our ability to 
remain ahead of our adversaries in this area, both commercially 
and strategically.
    These experiences imparted to me countless lessons that can 
help advance the critical mission of the Bureau, especially in 
the challenging times that we have. Should I be honored with 
confirmation, I would look forward to working with you as we 
endeavor to meet these challenges.
    Thank you again for the privilege of being with you today, 
and I look forward to your questions.
    Chairman Crapo. Thank you, Mr. Ashooh.
    Ms. Walsh.

STATEMENT OF ELIZABETH ERIN WALSH, OF THE DISTRICT OF COLUMBIA, 
   TO BE ASSISTANT SECRETARY FOR GLOBAL MARKETS AND DIRECTOR 
 GENERAL OF THE UNITED STATES AND FOREIGN COMMERCIAL SERVICE, 
                     DEPARTMENT OF COMMERCE

    Ms. Walsh. Thank you, Chairman Crapo, Ranking Member Brown, 
and distinguished Members of the Banking Committee. I am 
grateful for the opportunity to appear before you today. I am 
very honored to be here as President Trump's nominee for 
Assistant Secretary for Global Markets and Director General of 
the U.S. and Foreign Commercial Services. I am so honored to 
have my family with me on this special day. If you do not mind, 
I would like to introduce my father, Michael Walsh; my sister, 
Anne Walsh; and my mother and sister were unable to come today.
    Over the past several days, I have had the pleasure of 
meeting Members of this Committee and your staff. Thank you for 
taking the time to share your insights and perspectives on the 
economic conditions of your home States. If confirmed, I look 
forward to working closely with you and with your team.
    I bring to this nomination over 30 years of public and 
private sector experience. Through my work I have had the 
opportunity to gain extensive knowledge of foreign and economic 
affairs in Asia, the Middle East, and Africa, and I have 
traveled to or worked in 100 countries.
    A Georgetown University graduate, I interned at the White 
House during school before landing a full-time position in the 
Office of Political Affairs. I also worked at the Department of 
Energy and later joined the Department of State, where I served 
as the Deputy Manager and then Acting Manager of Blair House. 
In 1989, I moved to New York to serve as the Chief of Protocol 
to the U.S. Mission to the U.N. In 1994, I joined UNICEF as the 
head of emergency operations in Tuzla, Bosnia, during the war. 
I later left
Bosnia to attend graduate school at the London School of 
Economics and then returned to Sarajevo to work with the United 
Nations as an economic and political affairs officer.
    Returning home from Bosnia, I went to work at Cisco, where 
I built a strong partnership organization to bring the Cisco 
Networking Academy Program to 90 countries around the globe, 
particularly in Africa, Asia, and Central America, including 41 
of the least developed countries in the world.
    After several years in the private sector, I returned to 
the State Department in 2005 to serve as a Senior Advisor in 
the Bureau of Near Eastern Affairs. I was recruited to 
formulate and execute a strategic plan to advance U.S. policy 
interests, strengthen alliances, and establish programs focused 
on women across 16 countries in the Middle East and North 
Africa.
    At Goldman Sachs I was based in China and led the firm's 
philanthropic activities in Asia Pacific. I developed a long-
term strategic platform in Asia, seeking to foster economic 
growth and opportunity through investment in the community, 
public engagement, and partnership building. Through this 
experience I have seen firsthand the role the private sector 
can play in facilitating and enhancing America's prominence 
abroad and in advancing U.S. values. Furthermore, I know the 
critical role the U.S. Government plays in leveling the playing 
field to ensure U.S. companies can compete abroad and to ensure 
that our foreign competitors abide by their commitments and 
play by the same rules. I am passionate about the mission of 
the Department of Commerce and can think of nothing more 
meaningful or impactful than creating jobs through promoting 
U.S. exports or attracting foreign direct investment into the 
United States.
    Trade, exports, and foreign direct investment are a 
powerful engine for economic growth. With 95 percent of the 
world's population outside of the United States and more than 
one in five American jobs supported by trade, the Office of 
Global Markets has a critical role to play. Last year alone, 
for every $1 appropriated to Global Markets, an estimated $192 
was returned to the American economy in the form of increased 
exports and FDI for a total impact of $62.2 billion, which 
supported approximately 300,000 U.S. jobs.
    I am deeply grateful to Secretary Ross for his leadership 
and confidence in me. If confirmed, I look forward to having 
the opportunity to lead this organization, with all the amazing 
people that we have in the field, both at home and abroad. And 
I will bring to it my global experience and business background 
as well as my knowledge of how to leverage Government resources 
to ensure effectiveness.
    Thank you for your time today and for your consideration of 
my nomination.
    Chairman Crapo. Thank you, Ms. Walsh.
    Mr. Campbell.

    STATEMENT OF CHRISTOPHER CAMPBELL, OF CALIFORNIA, TO BE 
 ASSISTANT SECRETARY FOR FINANCIAL INSTITUTIONS, DEPARTMENT OF 
                          THE TREASURY

    Mr. Campbell. Chairman Crapo, Ranking Member Brown, and 
distinguished Members of the Committee, thank you for the
opportunity to appear before you today and considering my 
nomination to be Assistant Secretary of the Treasury for 
Financial Institutions. I am deeply honored and humbled to have 
been selected for this position and am grateful to President 
Trump and Secretary Mnuchin for the opportunity to continue my 
career in public service in a different venue.
    Before I get too far into my statement, I would like to 
recognize the members of my family who are in attendance today. 
With me today are my sister Michelle, my brother-in-law 
Richard, my brother Eric, and my sister Catherine. I also want 
to acknowledge my two other siblings who were not able to make 
it today: my brothers Scot and Marc. My mother would surely 
like to be here today, but she is too ill to travel. But I know 
she is watching from home.
    I also want to acknowledge my many friends, colleagues, and 
former colleagues who are here, many of whom have flown here 
for this occasion and for the hearing, and I appreciate them 
being here.
    I want to thank every one of them for being here and for 
their love and support. One does not receive opportunities like 
this without years of help from many, many people, and that is 
certainly the case for me.
    I come from the humblest of beginnings. I lived most of my 
childhood in poverty, really never thinking that I would be 
afforded the opportunities that have been presented to me over 
the last two decades.
    The first great opportunity that came my way was the chance 
to join Senator Orrin Hatch's campaign for President as the 
national field director. I think Senator Hatch would agree 
that, after that initial experience in politics and public 
service, there was really nowhere to go but up.
    Despite the results of that particular campaign, the 
Senator for some reason asked me to run his 2000 campaign for 
reelection. This was, to say the least, a lot of responsibility 
for a relatively inexperienced kid, but, thankfully, that 
campaign was a huge success, and I have worked with the Senator 
in a variety of capacities since that election, most recently 
as Staff Director for the Senate Finance Committee.
    I am, of course, grateful to Senator Hatch for his support 
and his encouragement over these years. He has been a mentor to 
me, and I certainly would not be here if not for his skillful 
tutoring.
    During my time in the Senate, I have worked hard to 
cultivate a reputation for three things.
    First and foremost, I have sought to be known as an 
effective advocate and strategist for achieving the goals of my 
employer, whether it be the Senator or the Committee.
    Second, I have worked to be known as one who prefers and 
effectively facilitates bipartisan cooperation. Throughout my 
career I have begun every effort with the presumption that a 
bipartisan result would be the preferred one and more enduring 
than a partisan one and have worked to achieve those kinds of 
outcomes.
    Finally, I have endeavored to build a reputation for being 
a good manager and leader. On the Finance Committee, Chairman 
Hatch and I have put together an effective and professional 
staff. Leading this team has been one of my most proud 
professional achievements.
    I cannot take credit for everything that has happened in 
the Finance Committee, of course, that we have accomplished 
there. The credit belongs to Chairman Hatch, Ranking Member 
Wyden, and Senator Baucus, who was the Chairman when I first 
started. But, once again, during my time on the Committee and 
throughout all of my time in the Senate, I have sought to leave 
a mark and build a reputation for being an effective advocate, 
a bipartisan facilitator, and a strong leader.
    Chairman Crapo, Ranking Member Brown, I have had the 
privilege to work closely with you, as well as with many other 
Members of this Committee throughout the years. As you consider 
my nomination, my hope is that those efforts to build that kind 
of reputation have been successful and that I have displayed to 
you those kinds of characteristics.
    The Assistant Secretary of the Treasury for Financial 
Institutions is responsible for leading the Treasury's efforts 
to monitor and regulate our Nation's banks and securities 
markets and to ensure our financial sector is resilient in 
times of crisis. In addition, it is responsible for 
coordinating, among other things, Treasury's work on financial 
education, consumer protection, community development, 
affordable housing, and cybersecurity.
    In other words, the position has a broad focus, dealing 
with the largest banks and investment companies as well as 
small community organizations. This is not unlike the broad 
jurisdiction of the Senate Finance Committee. Successful 
leadership from this position will require great management 
skills and the help of many talented career staff at the 
Department. In addition, it will require a balance of competing 
interests.
    I think it is safe to say that few, if any, nominees 
considered by this Committee have ever been so cognizant of the 
need for cooperation between Congress and agencies in the 
executive branch. If confirmed, I look forward to working with 
the Members of this Committee to ensure safety and soundness of 
financial institutions and practices, fairness, and avenues 
through which the financial sector works to facilitate economic 
growth and opportunities for all Americans.
    Members of the Committee, thank you for the opportunity to 
appear with you today, and I look forward to answering your 
questions.
    Chairman Crapo. Thank you very much, Mr. Campbell. And 
before I begin the questioning round, I want to say I am super 
impressed with this panel, not only because of the 
qualifications that each of you have but because each one of 
you finished your testimony in well less than 5 minutes.
    [Laughter.]
    Chairman Crapo. I think that is actually a record. Thank 
you very much for that.
    I was going to ask each one of you to just briefly tell me 
what your top priorities are, if you are confirmed. But I am 
going to ask you to do that instead in writing. Following this 
hearing, each of you or at least I expect that each of you will 
receive some follow-up questions from Senators, and we will 
encourage you to respond to those as promptly as you can. So 
consider that to be your first question, and that is, just in a 
paragraph or so, what are your priorities as you move into this 
position?
    Chairman Crapo. And then I actually only have one specific 
question for one of you, and that is you, Mr. Ashooh. The last 
Administration launched an export control reform initiative, 
some of which is still being implemented. My question is: Do 
you think that that initiative has accomplished what it was set 
out to achieve? What else needs to be done? Or should the 
Administration take a different route?
    Mr. Ashooh. Thank you, Mr. Chairman, and I agree, many good 
things were done in the prior Administration to do what many 
would consider to be long overdue changes to make our export 
control regimes more accessible to those who are by necessity 
accountable to them.
    I do believe there is more to do. I would not prejudge for 
a moment the entirety of what those things are. If confirmed, I 
would absolutely follow up with you about that, but there is no 
question that I believe the fresh eyes that I would bring to 
our export control system would certainly result in some 
opportunities to do things even better.
    Chairman Crapo. All right. Thank you very much. I was going 
to let Senator Hatch take a couple minutes and ask Chris some 
questions when he is under oath.
    Mr. Campbell. Oh, no.
    [Laughter.]
    Chairman Crapo. But he has politely declined to do that, so 
you just dodged a bullet.
    Mr. Campbell. I am so grateful.
    Chairman Crapo. With that, I am going to conclude my 
questioning. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    I do not often suggest reading material to people in the 
Administration or even colleagues, but I would ask the three 
HUD nominees to consider reading a couple of books that I have 
spoken of. I was one of, I believe, five or six Democrats to 
vote for the confirmation of your boss for a number of reasons, 
and I asked him to read two books that I think are particularly 
important. One is ``Evicted'' by Matthew Desmond about the 
increased rates of foreclosure in this country and how lives 
turn upside down when someone is foreclosed on or is evicted 
from their homes. It was a case study that he did that was very 
effective in painting the picture, maybe a picture of where you 
at one time lived, Ms. Farias.
    Written recently, another book, sort of hand in hand with 
this genre of Michael Harrington and others in this country, is 
a book called ``$2.00 a Day,'' and I would suggest to the three 
of you that you would find time prior to or in your early days 
of serving this Administration for reading those two books. 
Thank you.
    We have a large panel. I want to get through as many 
questions as possible. Ms. Farias, FHEO is instrumental in 
implementing HUD's Affirmatively Furthering Fair Housing, AFFH, 
rule. Do you support the AFFH rule? And will you commit to 
implementing it?
    Ms. Farias. The law of 1968 makes it very clear that for 
discrimination against housing that is one of the things 
grantees have to do, and HUD has been implementing it as it was 
when I was there under President Bush. I know that there is a 
new rule. If confirmed, I will review the concerns and--but, 
yes, it will be implemented. And if there are any changes, they 
have to comport with the law.
    Senator Brown. OK. Thank you.
    Mr. Campbell, you played a significant role in a colloquy 
between the Chair and Ranking Members on Finance regarding 
responsiveness by the Administration to requests from both 
Democrats and Republicans. Thank you for that. If confirmed, 
will you commit to reply to every oversight or other letter and 
request for information, from the Chair, or from Members on 
both sides of this Committee in a timely manner?
    Mr. Campbell. Senator Brown, you will find no one that 
cares more about this institution probably than me, and I spent 
the majority of my time in the minority. I understand the 
challenges of the minority, and everything that is in my power, 
I will answer each question from you or any Member of the 
Committee.
    Senator Brown. Thank you. And I would like to ask each of 
you that same question. Will you commit to reply to every 
oversight or other letter and request for information from any 
of us on this panel? Ms. Walsh?
    Ms. Walsh. Yes, Senator, I do commit.
    Senator Brown. Mr. Ashooh?
    Mr. Ashooh. Yes, Senator.
    Senator Brown. Mr. Rackleff?
    Mr. Rackleff. Yes, sir.
    Senator Brown. Ms. Farias?
    Ms. Farias. Yes, sir.
    Senator Brown. Mr. Compton?
    Mr. Compton. Yes, Senator.
    Senator Brown. Thank you. Thank you for that.
    Ms. Walsh, you served for several months in the Trump 
administration transition, both on the campaign, then at the 
White House as a key point of contact for the State Department, 
including a co-leader for the State Department landing team. 
Did you during that period have or arrange any meetings between 
Russian and U.S. officials?
    Ms. Walsh. No, sir.
    Senator Brown. OK. Thank you for that.
    Mr. Campbell, at the recent G-20, President Trump said he 
talked with Vladimir Putin about forming a cybersecurity unit 
to guard against future election hacking. It seems like the 
President has since cooled on that idea. Secretary Mnuchin, 
your future boss, echoed the President, described as a 
``significant accomplishment'' that President Trump talked with 
Putin about forming this unit. I have not heard the Secretary 
further comment on it.
    If confirmed, you will play a significant role in 
Treasury's cybersecurity efforts. I hope you will not be 
setting up a cybersecurity unit with Russians in your new role. 
Any comments?
    Mr. Campbell. Senator, I think it is important and I think 
you hopefully would agree that the U.S. lead the efforts, no 
matter who we engage with, on cybersecurity and making sure 
that we protect the critical financial backbone of the 
financial markets. So
irrespective of with whom we engage--and, obviously, the 
Secretary and the President will coordinate those, make those 
decisions, and I will, as well as working with you guys on the 
Committee and your staff, make sure that we export America's 
values and make sure that we protect the critical 
infrastructure of our financial markets and institutions.
    Senator Brown. OK. Thank you. And last question. Mr. 
Compton, if confirmed, you will bring valuable experience in 
affordable housing development and finance as General Counsel. 
In addition to and as part of your affordable housing work, you 
have spent many years representing financial interests, as you 
told us about your background in banking in Alabama. As General 
Counsel, you will be charged with protecting the rights of 
renters and homebuyers and FHA consumers.
    Tell me, briefly if you can--because I am over my 5 
minutes, and I respect the Chairman's admonitions every day.
    [Laughter.]
    Senator Brown. What will your approach be in protecting the 
rights of these groups, particularly in cases where their 
interests may go up against the interests of the banking 
industry?
    Mr. Compton. Senator, first I recognize, if confirmed, my 
role as General Counsel at the Department of Housing and Urban 
Development, and it has a broad purview, and certainly in 
representing the Department as my client first, I would 
coordinate on enforcement matters with my colleagues on that. 
But I think that my background with respect to having 
represented financial institutions in the past helps me 
understand the plight of the consumer on the other side as 
well.
    Senator Brown. OK. Thank you for that. There is concern 
among large swaths of the public that, particularly inside the 
White House and in Treasury and other places, there is simply 
too much influence by Wall Street and among major banking 
interests in this Administration, and your role in pushing back 
against that when you get it from the higher-ups is 
particularly important. So thank you for your commitment to do 
that.
    Mr. Compton. Thank you, Senator.
    Chairman Crapo. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Chairman, I believe we have a distinguished group here 
from Mr. Compton to Mr. Campbell. Everybody is ready to go to 
work. The Administration needs these people. I would call this 
a sterling group.
    I would say a few other words about Mr. Compton. He is well 
known in my State in the area of housing. As he said in his 
opening statement, he has been involved in development of a lot 
of low-income housing, up into the thousands of units. He knows 
this area. We are proud that he is coming in here and taking a 
job at HUD. But I am also proud of all of you accepting the 
responsibility of Federal service, and I look forward to 
supporting all of you.
    I have a number of questions, but I will submit those for 
the record, and I would like for my opening statement to be 
made part of the record, Mr. Chairman.
    Chairman Crapo. Without objection.
    Senator Shelby. And I hope you can expedite, you and 
Senator Brown, these nominees as soon as possible.
    Chairman Crapo. We intend to try to do that.
    Senator Brown. Mr. Chairman, we will move at a much more 
rapid pace than we have in the last several years.
    Senator Shelby. I would think so because we probably have a 
lot more distinguished people to move.
    [Laughter.]
    Senator Brown. Which we would not know, because we actually 
had so few hearings to find out about them.
    Senator Shelby. I would say again, when I was Chairman, we 
evaluated people like we are doing now, and I like what I see 
today.
    Chairman Crapo. You can see why they put me in this seat.
    [Laughter.]
    Chairman Crapo. Next is Senator Warren.
    Senator Warren. Thank you very much, Mr. Chairman. And 
thank you all for being here and for your willingness to serve.
    I want to talk about affordable housing. There is an 
affordable housing crisis in this country. Most experts say 
that a family that spends more than 30 percent of its income on 
rent will have a very hard time meeting their other 
obligations, you know, for food and clothing and 
transportation. But at this moment, more than 11 million 
families are paying more than half their income in rent.
    Now, HUD's core mission is to address the affordable 
housing crisis, but that actually takes money to make it 
happen. And even as this problem gets worse and worse, Donald 
Trump wants to slash more than $6 billion from the HUD budget 
next year. That would be a 13-percent cut.
    Community Planning and Development is the part of HUD that 
is responsible for developing affordable housing and the 
surrounding communities so that residents have access to decent 
jobs and to services. The Trump budget would cut the funding 
for this Department by 60 percent, and I do not know how anyone 
runs a Department when more than $1 out of every $2 disappears 
in a single year.
    So let me ask, Mr. Rackleff, if you were nominated to run 
the Community Planning and Development Department, do you 
support these massive cuts to your Department's budget?
    Mr. Rackleff. I do support the President budget.
    Senator Warren. So I guess then I do not understand what--
how do you plan to run a Department where you lose 60 percent 
of your money?
    Mr. Rackleff. I can only say to you, Senator Warren, that 
whatever resources are afforded to me by the Administration and 
by Congress I will use wisely. We have faced significant cuts 
at the city of Houston in some of the very same funding 
sources, and it has been difficult, but we will find ways to 
help those that we can.
    Senator Warren. Let me push back on that. You have touted 
your record at Houston. You said that is the reason that we 
should confirm you, is because you had a great record at 
Houston. But let me just take a look. When you served as 
director of the Housing and Community Development Department 
for the city of Houston from 2012 through July of 2016, 
according to HUD data, the city of Houston received more than 
$100 million in Federal Community Development Block Grants from 
HUD. And you used that money to rehab homes, to remove lead, to 
improve surrounding roads, all trying to increase access to 
safe and affordable homes.
    Now, if you are confirmed, you are not going to have that 
same money to give to other cities. Do you think other cities 
do not deserve that same opportunity?
    Mr. Rackleff. As I mentioned, I support the President's 
budget, and I will use whatever resources are afforded to me 
effectively and well.
    Senator Warren. So what is going to happen to affordable 
housing in America?
    Mr. Rackleff. Most of the affordable housing that is 
generated in America today, as you are aware of, I am sure, is 
financed actually through tax credit equity through the Low-
Income Housing Tax Credit Program.
    Senator Warren. Are you telling me the $100 million that 
Houston got while you were in charge was not helpful as you 
described it at the time to rehab homes, to remove lead, and to 
improve surrounding roads?
    Mr. Rackleff. No; it certainly was helpful. But what I 
will--I am not so concerned about what acronyms are associated 
with the funding that we receive, and I am confident that we 
will obtain the funding necessary to help the people that I 
care so much about.
    Senator Warren. I do not think I understand that last 
answer. Are you telling me you think you are going to get the 
money from someplace else?
    Mr. Rackleff. I am confident in the Congress of the United 
States and the Administration working together to provide the 
resources that we need to help the people that we both care so 
much about.
    Senator Warren. Well, the resources we need include, it 
seems to me, the $6 billion that has been spent in the past, 
that you yourself personally have administered and made good 
use of in Houston. Are you saying you think we are going to 
make up that $6 billion somewhere else?
    Mr. Rackleff. I hope that resources will be found to help 
us accomplish the things that we need to get done, yes.
    Senator Warren. So you support the President's cuts, but 
you hope that they are not actually going to happen?
    Mr. Rackleff. No, ma'am. I believe that there are other 
ways that we can find to help folks who need assistance, and I 
know that Dr. Carson has talked about finding other mechanisms 
to help those that we----
    Senator Warren. And I think so far, how much extra money 
have you found?
    Mr. Rackleff. If confirmed, I will do the best that I can 
to work with----
    Senator Warren. How much has he found so far, extra money?
    Mr. Rackleff. I do not know the answer----
    Senator Warren. None.
    Mr. Rackleff.----to that question.
    Senator Warren. I think the answer is none.
    You know, look, I just want to be clear about this. It 
takes money to rehab those homes. It takes money to do lead 
abatement. It takes money to rebuild the roads so there is some 
transportation in and out of these neighborhoods. It takes 
money to help us accomplish some affordable--to build some 
affordable housing, to make sure we have some affordable 
housing. And if we turn our backs on that, then the affordable 
housing crisis in this country just gets worse.
    Thank you, Mr. Chairman. I apologize for going over.
    Chairman Crapo. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Rackleff, I would like to just follow this up just a 
little bit. I get the sense that what you are trying to share 
with the Committee is that your role is to use whatever 
resources are made available to you, you will do in a 
responsible manner. Is that a fair way of putting it?
    Mr. Rackleff. Yes, sir. You sense my response perfectly.
    Senator Rounds. Let me just offer this: I understand where 
the Senator from Massachusetts is coming from in expressing 
that housing is a very important issue. We have the same 
challenges in South Dakota with housing on the reservations and 
so forth. And, most certainly, I recognize that where the 
President may make recommendations and focus, which has been on 
defense improvements and so forth--which are critical and I 
agree with him on that--I also understand that as part of this 
process, we will be looking at funding for the other agencies 
as well, and that becomes our role.
    You understand that the appropriations process is where the 
decisions are actually made, and that belongs to the 
congressional branch of Government. Is that not correct?
    Mr. Rackleff. Yes, sir, and I have tremendous faith and 
confidence in our constitutional system.
    Senator Rounds. The responsibilities for the actual 
determination of the amount of money that will be delivered to 
your Department, which we would expect you to expend in a 
responsible manner, is our decision, is it not?
    Mr. Rackleff. Yes, sir.
    Senator Rounds. And the money that we do entrust to you, 
you will utilize in the most responsible manner possible.
    Mr. Rackleff. Yes, sir. I feel I have a strong history of 
using whatever resources that are made available to me to do a 
good job in helping the people that we all care so much about.
    Senator Rounds. Is there anything else on this subject that 
you would like to clarify?
    Mr. Rackleff. No, sir.
    Senator Rounds. Thank you.
    I do have a couple of other questions for the nominees 
within our housing--or let me begin with Commerce just for a 
minute. Mr. Ashooh and Ms. Walsh--first of all, I want to thank 
all of you for appearing before this Committee. You all have 
very impressive backgrounds and qualifications, and I do 
appreciate your willingness to step forward and to serve.
    My question is going to be directed to our two nominees for 
the Department of Commerce who will have significant 
responsibilities with respect to trade. You both may be aware 
that South Dakota exports billions of dollars of agricultural 
products every year. As a result, I have been watching with 
great interest the decisions that President Trump has made with 
respect to agreements like TPP and the North American Free 
Trade Agreement.
    Can you share your views on our evolving trade 
relationships? How will the work that you do to help facilitate 
and grow our trade with other countries come forward? The 
reason why I ask this question is it is one thing to be able to 
put together a very complicated compact with a number of 
countries and get as far as we did with TPP. But then to try to 
do the individual agreements country by country, while I admire 
the idea of doing it, it provides us with opportunities, the 
time challenges on this will be significant.
    Can you share your thoughts about how you will prepare and 
move forward with your new roles?
    Mr. Ashooh. You get to go first.
    Ms. Walsh. OK. Thank you, Senator, for that question. It 
was wonderful to have the opportunity to meet with you in your 
office, so thank you for your time.
    In this role, if confirmed, I think that the focus will 
definitely be on increasing our exports globally. At this point 
about 1 percent of our small- and medium-sized businesses in 
the United States export, and the role of the Foreign 
Commercial Services is to really focus on each of these 
businesses, particularly in small- and medium-sized 
enterprises, to expand their markets globally, to look at where 
the opportunities are and the trends, where there is an 
increasing level of middle-class consumers. And that is what 
our teams would be looking at at the Department of Commerce, to 
focus on trade and also the reduction of the trade deficit.
    Mr. Ashooh. Senator, thank you. I would say that the 
increased economic activity that increased our trade creates 
puts pressure on the Bureau of Industry and Security to ensure 
that we are not losing control of our valuable technology 
assets. So that is the perspective that BIS would have.
    What I would say is that there are already preexisting 
multilateral agreements that the Department of Commerce uses in 
order to implement export controls, and I have been impressed 
to learn these run very well. And, if confirmed, I would look 
forward to ensuring that these agreements continue to serve 
this important role in the face of increasing economic 
activity.
    Senator Rounds. Very good. With regard to housing, one of 
the most pressing concerns from a housing standpoint within our 
State is how our new Administration will work with Native 
American tribes and officials on promoting housing on Native 
American reservations. Reservations face some of the most 
significant obstacles when it comes to promoting a safe and 
stable housing supply, and oftentimes the remote location and 
economic challenges make it difficult to promote the growth of 
new housing stock.
    I am going to ask this for the record. I will respect my 5-
minute time limit. Could the three of you please respond in 
writing? Can you please discuss your views on tribal housing? 
And I need to bring this to your attention because we have a 
real lack of housing on the reservations themselves. And will 
you commit to working with us and your colleagues to 
understanding and improving the challenges associated with 
tribal housing? That is a yes or no answer, but I would like 
that part right now. This is a critical area in rural areas 
where the most poverty in America exists, and housing is a 
major part of the issue. Would all of you agree to commit to 
responding back to how you see we can work to promote more 
housing in rural areas, particularly reservation areas? And 
would you commit that it is a serious problem and you would 
agree to work with us to find solutions?
    Ms. Farias. Yes, Senator Rounds.
    Mr. Compton. Yes, Senator, and certainly tribal areas post 
special issues in public-private partnerships that I am aware 
of.
    Mr. Rackleff. Absolutely, and I would add that I have had a 
fair amount of experience working in Texas in rural areas where 
we have a lot of the same inherent economic challenges in 
providing housing economically in remote locations. One of the 
things we have done in Texas is to target set-asides of the 
housing tax credit equity that is provided to the State to 
those areas, and I think that there are some innovative things 
that we can do to help you.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Menendez.
    Senator Menendez. Mr. Chairman, before I start, I want to 
briefly note that I have some serious concerns about the 
Committee considering this many nominees at one time. The 
breadth and scope of the nominations go from banking, 
affordable housing, financial institutions, national security, 
and trade, and within 5 minutes or so, even with the Chairman's 
courtesy of letting it go over a little bit, the breadth and 
scope--I just cannot possibly do that in 5 minutes. I know 
others are much more talented than I am, but I cannot.
    [Laughter.]
    Senator Menendez. And so, therefore, I will have real 
problems with the nominees unless I get substantive answers to 
my written questions and the lack of being able to pursue the 
time here. And I would hope that the Chair would consider in 
the future either two panels or a smaller set so that we can 
have the substantive time to ask these nominees.
    Ms. Farias, I understand that in response to Ranking Member 
Brown's questions, you affirmed that you will provide clear 
guidance to grantees in public housing agencies on how to meet 
their requirement to affirmatively further fair housing under 
the Fair Housing Act, and that you intend to implement the Fair 
Housing Rule affirmatively. Is that fair to say?
    Ms. Farias. Yes, Senator Menendez.
    Senator Menendez. Mr. Compton, you are going to be the 
General Counsel. Will you be doing the same?
    Mr. Compton. Yes, Senator. I think implementation of 
Affirmatively Furthering Fair Housing is one of our big 
projects.
    Senator Menendez. Thank you.
    Mr. Rackleff, your testimony touts your tenure as former 
director of the Houston Housing Community Development 
Department. Under your leadership in Houston, the department 
produced an impressive 7,800 multifamily housing units with 
another 2,700 in progress.
    Would you say that the development of those units expanded 
access to affordable homes in the Houston area?
    Mr. Rackleff. Absolutely.
    Senator Menendez. During your time as director, did Houston 
utilize Community Development Block Grant and Home Investment 
Partnership funds to develop and rehabilitate affordable 
housing units?
    Mr. Rackleff. We did.
    Senator Menendez. So I think you would disagree with the 
statement that the Community Development Block Grant Program 
and the Home Investment Partnership have not demonstrated a 
measurable impact on communities. Is that correct?
    Mr. Rackleff. I can only speak to my own experience in 
Houston----
    Senator Menendez. And in your experience, would you say 
that is correct?
    Mr. Rackleff. In Houston, we did a great job with those 
funds.
    Senator Menendez. OK. Now, Mr. Campbell, it is good to see 
you over here in the Banking Committee.
    Mr. Campbell. Good to see you, Senator.
    Senator Menendez. In the Senate Finance Committee as well, 
it is always great to see you there. The President spent a 
great deal of time on the campaign trail highlighting 
neighborhoods and communities throughout the country that 
seldom reap the benefits of economic expansion but are reliably 
and disproportionately burdened by economic downturns. And yet, 
astonishingly to me, the Administration has proposed zeroing 
out the Community Development Financial Institutions, the CDFI 
funds, which support the private community partners that have 
stepped up for the better part of a century to inject capital 
in these forgotten communities.
    I have not seen any justification rooted in facts, and at 
least one of your future colleagues, NCUA Chair McWatters, told 
this Committee he opposes the fund's elimination, a sentiment 
echoed by the ABA and ICBA.
    As Assistant Secretary for Financial Institutions, the CDFI 
fund will fall directly under your oversight. If confirmed, 
will you be an advocate to maybe lend some light to the 
Administration that may not have all the information here to 
try to sustain the important work of the CDFI funds?
    Mr. Campbell. So, Senator, as you know, as you are well 
aware, I was not a part of the Administration when the 
President developed his budget, and as you are also aware, I am 
definitely a creature of this institution, having worked 
closely with you on Puerto Rico issues and many others.
    With regard to the CDFI specifically, there is--I am 
confident in your and your colleagues' ability to be able to 
best determine how you want to spend the taxpayer dollars, and 
if afforded and if appropriated to the CDFI and if confirmed, I 
will do my level best to work with you, your colleagues, 
interested colleagues and staff to----
    Senator Menendez. Well, I appreciate that you want to punt 
it to us, and I understand that. But let me just say, part of 
my--I just came from a Foreign Relations hearing where I had 
the same problem. Part of the challenge of hearing that answer 
is that when you are confirmed, you will be in a position to 
advocate policy within the Treasury Department and within the 
Administration and interagency process. And so I know you are 
going to basically follow the lead of whatever the final 
decision is, whether by Congress or the Administration.
    What I am asking you is: Do you believe the CDFI funds 
actually provide a good basis for development in these 
communities? And can you be an advocate for them even if, at 
the end of the day, you lose your advocacy?
    Mr. Campbell. So, Senator, I want to work with you and your 
staff. I know of your strong commitment to this issue. There 
are some areas of duplications within the Administration that 
cover CDFI. I think there are perhaps ways to streamline those 
issues to make the use of taxpayer funds more efficient and 
more effective to the affected community, and I think we can--
and I hope we can work together and create a dialogue in which 
we can find a way to better streamline those and be able to 
deliver those necessary and important resources to those 
affected communities.
    Senator Menendez. Mr. Chairman, I have a series of other 
questions. I will submit them for the record. I will be looking 
for substantive responses, and the lack thereof I will have a 
problem with moving the nominees to the floor and hold it on 
the floor until I get them.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Crapo. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, and thank you all 
for your willingness to serve.
    I am going to start with you, Mr. Rackleff. You are up for 
the position of Secretary of Community Planning and 
Development. In the Trump budget, the Housing Trust Fund has 
been eliminated, the Interagency Council on Homelessness has 
been eliminated, the HOME Program has been eliminated, and the 
CDBG Program has been eliminated. I want to follow up a little 
bit. You had mentioned in a previous question--I believe it was 
from the Senator from Massachusetts--that low-income tax 
credits could fill that void. Do you really believe that?
    Mr. Rackleff. I do not believe that I conveyed that low-
income tax credits can fill every other financial void that is 
out there. My statement was simply that low-income tax credits 
are by far the largest source of equity----
    Senator Tester. OK. I got that. So is affordable housing 
important to you?
    Mr. Rackleff. Absolutely.
    Senator Tester. OK. So with those being zeroed out, how are 
we going to have any affordable housing initiatives? Anything 
come to mind?
    Mr. Rackleff. As I mentioned before, I support the budget 
as presented, and I will do everything I can to utilize funds--
--
    Senator Tester. I appreciate that.
    Mr. Rackleff.----that I have at my disposal.
    Senator Tester. I got it. And as far as the Senator from 
South Dakota goes, who I have a tremendous amount of respect 
for, you are right, Congress is going to touch this budget. But 
if you do not advocate for stuff, how are we supposed to know 
where to put money?
    Mr. Rackleff. I will say that I have always been an 
advocate for those who are underserved, and I will continue to 
be.
    Senator Tester. I got it. But I am talking about from a 
funding standpoint and from a budgetary line-item standpoint. 
If you do not tell us that the CDBG Program is important or the 
HOME Program is important, how do we know where to put the 
money?
    Mr. Rackleff. I will provide good data on all of those 
programs if I am confirmed. I look forward to the opportunity 
to work----
    Senator Tester. I appreciate that. So I anticipate what you 
are saying is that, if you are confirmed, you will put 
recommendations forward to us on what line items need to be 
plussed up to be able to have more affordable housing in this 
country?
    Mr. Rackleff. I will certainly work with Secretary Carson 
and the Administration, and within that context, I will be an 
advocate for those----
    Senator Tester. And so if he says, ``No, we are sticking 
with this budget; we are not going to increase any of them,'' 
do you intend to push back on that?
    Mr. Rackleff. Ultimately, I think it is critically 
important that our country moves toward fiscal responsibility 
and balancing the budget, and I think that there are 
macroeconomic concerns that are important. If we do not have a 
strong middle class, if we are not strong fiscally, we are not 
going to be able to help anybody.
    Senator Tester. OK. I agree with you. So let me give you an 
example of a town of about 8,000 people that I was at earlier 
this year that said, ``We cannot get any new businesses to come 
to our town because we have no place for the employees to live 
because we have no affordable housing.'' What do you suggest we 
do with that, with all these programs being eliminated? What do 
you suggest that I go and tell the city council of that town 
from a Federal level here is where you need to go to be able to 
address your needs of affordable housing?
    Mr. Rackleff. Well, I can tell you that I have worked in 
economic development not just in affordable housing----
    Senator Tester. I got it. You got a town in Montana. This 
is not an Indian reservation. It is 8,000 people. They cannot 
recruit any businesses because they have got no place for 
employees to live. Do I just say, ``Go get some low-income tax 
credits''? Or do I say, ``Get a hold of HUD and there are these 
programs that you will utilize'' if we do not plus those 
programs up?
    Mr. Rackleff. I will tell you that I have worked in small 
towns doing affordable housing exactly in the scenario that you 
have outlined.
    Senator Tester. Yep.
    Mr. Rackleff. And what you would use as the primary vehicle 
for over 90 percent of the equity you need would be the tax 
credit program.
    Senator Tester. I see--which you have no say over 
whatsoever.
    Mr. Rackleff. That is correct.
    Senator Tester. OK. So what is the purpose of HUD?
    Mr. Rackleff. The purpose of HUD----
    Senator Tester. What is the purpose of me confirming you in 
this position if you do not have any programs to help with 
affordable housing when your position is the Secretary of 
Community Planning and Development?
    Mr. Rackleff. Even though there are fiscal challenges that 
we are grappling with, there are still literally billions of 
dollars of Community Development Block Grant funds that are 
out--that have been granted to cities across the country, and 
there is a spending pipeline that takes quite a while to work 
through. So there is still a great deal of work to do no matter 
what happens to the Community Development Block Grant budget or 
HOME budget.
    Senator Tester. I got it.
    Mr. Rackleff. And I will be a wise steward of whatever 
resources----
    Senator Tester. And I have no doubt that you will be a wise 
steward of the resources that are there. But if there are no 
resources there, you do not have much stewardship to do. And I 
would tell you that as we move forward on this budget--and it 
is a common theme, and somebody has coached you well, and 
probably everybody else on this Committee--I hope not you, Mr. 
Campbell--to say, ``This is a budget that I support, and this 
is the way it is going to be, and this is how we are going to 
move forward.'' I agree with you, we need to get the debt under 
control. But I am going to tell you, if we have a substandard 
economy in this country--and you have that in rural America 
right now, especially with this budget--we need people fighting 
for us so that the Administration is going to come in and give 
us the honest to God truth that, ``Hey, you know what? This 
zeroes out CDBG.'' But CDBG is important. Would you guys plus 
it up? That is all I am asking for.
    You have had some experience; otherwise, you would not be 
here. You need to utilize that experience. I do not need to 
lecture to you, and I do need to see you this afternoon, Mr. 
Campbell. Thank you all very much.
    Mr. Campbell. Look forward to seeing you, Senator.
    Chairman Crapo. Thank you.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Thank you to all 
of the nominees and their families. Congratulations.
    I want to follow up, Mr. Rackleff. You have done a number 
of deals in Houston.
    Mr. Rackleff. Yes, sir.
    Senator Schatz. And I am wondering if you can just take me 
through the capital stack of a typical project that you have 
been involved in. You say it is about usually 90 percent LIHTC 
and then 10 percent CDBG and other subsidies? Could you just 
walk me through it? If I am getting that wrong, that is fine. 
Just let me know what a typical deal would be like.
    Mr. Rackleff. Sure. Of the Federal funding involved, over 
90 percent would typically be Low-Income Housing Tax Credits. 
If you had, let us say, a 200-unit apartment complex that cost 
$20 million to develop, probably 70 percent of the financial 
resources would come from the sale of Low-Income Housing Tax 
Credit and the equity that is derived from that.
    The Federal sources of funding that we are responsible for 
often become gap fillers, so some projects need $1 to $2 
million of soft money from another source, and then there also 
is conventional debt, which is secured in the private markets.
    Senator Schatz. But that money that fills the gap is 
disproportionately important. Is that accurate?
    Mr. Rackleff. It can be. It really depends on----
    Senator Schatz. In other words, it is the difference maker; 
otherwise, it would not be----
    Mr. Rackleff. There is no question that it is important.
    Senator Schatz. OK. So let us just talk about LIHTC for a 
moment. I understand it is not under HUD. But the challenge 
with LIHTC in the context of tax reform, as people are 
anticipating lower corporate tax rates and the value of the 
LIHTC is going down, just anticipating tax reform. So I am 
wondering how you view LIHTC's value in the context of trying 
to get projects done if we lower the corporate tax rate. It 
seems to me that the thing that you are saying comprises most 
of the pot sweetener may be less sweet if we do tax reform in 
the way that it is being contemplated.
    Mr. Rackleff. Well, I can tell you that it is not clear to 
me what tax reform is being contemplated at this point. But, 
certainly, the markets like predictability, and the fact that 
there is some discussion of tax reform has caused tax credit 
equity prices to drop some. From a tax policy perspective, I 
would think we do not want the tail wagging the dog, though, 
and one program ought not to dictate an entire Nation's tax 
policy.
    I will say that as we----
    Senator Schatz. Right, but if we are committed to LIHTC as 
a matter of policy, if we are in the process of reducing 
corporate rates and that changes the incentivization of 
projects, we may end up wanting to increase the LIHTC value. 
And that is not your call----
    Mr. Rackleff. Yes, yes.
    Senator Schatz.----it is our call for sure.
    Mr. Rackleff. Yes, that is true. But it also depends on how 
depreciation is considered, and there are other economic 
factors that go into the pricing of tax credits.
    Senator Schatz. Sure. And I guess the point, following up 
on the Senators from Montana and Massachusetts, you are duty-
bound to support the President's budget, and I do not want to 
get into it with you about that. But it is just very clear to 
me that your whole private sector existence, your mission--and 
your reputation is strong in this space--demonstrates the value 
of not just LIHTC but all of the HUD programs. And so you would 
be in a very difficult position to trash the President's budget 
at a nomination hearing. I will not ask you to do that.
    I do think it is really important that in the interactions 
both at the HUD level and with OMB that you make clear the 
devastating impact that some of these proposals will have. I do 
not want you to comment on it because I do not want to get you 
on the record declining to advocate for this, because I think 
this is critically important.
    Last question, Housing First. I talked to Secretary Carson 
about this. I believe very strongly in Housing First. It has 
worked in lots of cities and States. There is now bipartisan 
consensus. What we have in Hawaii is extraordinarily 
challenging. We have the unfortunate distinction of one of the 
highest increases in terms of our homeless population and some 
really unique challenges being the most isolated populated 
place on the planet.
    Can I get your commitment to help to implement Housing 
First policies wherever you have a partner in a city or a State 
or a county?
    Mr. Rackleff. Absolutely. I am very committed to Housing 
First as the most effective way to assist those who are 
struggling with homelessness. That is the way that we have 
cracked the code nationally and locally to figure out how to 
really help those who are chronically homeless.
    I will say also, though, too, that there has been a lot of 
discussion recently about the importance of transitional 
housing as well, housing that focuses on the needs of women who 
are victims of
domestic violence, individuals with substance abuse. And I can 
tell you we funded some of those programs and projects when I 
was in Houston, and it was a really beautiful thing to see. We 
had an organization called the ``Men's Center,'' which was 
compromised of men who all were recovering alcoholics, who were 
the board of directors, and who worked together to help each 
other. And I really felt as I stood before those good people 
that we were standing on sacred ground.
    I will absolutely work with you to help implement Housing 
First in your State, and, you know, I spent a little bit of 
time in college there, so I have a special place in my heart 
for that part of the----
    Senator Schatz. I will look forward to sending you a demand 
letter.
    [Laughter.]
    Senator Schatz. Thank you.
    Chairman Crapo. Thank you, Senator Schatz.
    Senator Cotton.
    Senator Cotton. Thank you, and congratulations to all of 
you on your nominations, and thank you for your willingness to 
serve our country.
    Mr. Campbell, I want to speak about stress tests under the 
Dodd-Frank Act.
    Mr. Campbell. Yes.
    Senator Cotton. Stress tests are required of banks with 
more than $10 billion in consolidated assets. Those banks then 
have to provide annual reports. That does not seem like a lot 
in the grand scheme of banking. In Arkansas, that is a pretty 
big bank, though. We have three banks--the Bank of the Ozarks, 
Arvest, and Centennial--that fall into that range. We have one, 
Simmons National, which is just underneath it. Maybe they will 
pass the $10 billion mark soon. Maybe they will pump the 
brakes, as many banks have, specifically to avoid these kind of 
regulatory burdens. But do you believe that any of those four 
banks or any bank that size, you know, banks, say, in the $10 
to $20 billion range pose some kind of systemic risk to our 
financial system?
    Mr. Campbell. Senator, when addressing this issue, I think 
it is important to suggest that size is not everything in these 
areas. I think it is more of the activity that the institutions 
are involved in. And as you know, recently in a Treasury 
report, the Secretary suggested some modifications to the 
financial regulations in this area to make sure that the access 
to capital from small- and medium-sized banks is more readily 
available to your farmers and to businesses that need access to 
capital.
    If confirmed, I look forward to working closely with you 
and Members of the Committee to right-size and tailor those 
regulations in a way that will allow for greater access to 
capital for small- and medium-sized institutions.
    Senator Cotton. I think that is an important point. You 
know, a bank could be much larger than any of those banks. It 
could be tens of billions of dollars and engage in very 
ordinary, traditional, plain-vanilla-style banking without 
posing serious systemic risk.
    By contrast, a financial institution could actually be 
smaller than that, and because of the complexity of its 
transactions, its
interlocking counterparties, its esoteric finances, it could 
actually pose greater risk.
    I personally do not think that requiring stress tests and 
annual reporting for banks of that size in Arkansas and all 
across the country is going to do much to make the financial 
market--I am sorry, the financial sector all that much more 
stable.
    Could you give us a brief account for what you think are 
the cost-benefit analysis of imposing that kind of regulation 
on banks of that size? What are customers losing out on when 
you have people at banks like Bank of the Ozarks or Centennial 
or Arvest engaged in these fairly onerous annual regulatory 
compliances as opposed to doing banking work?
    Mr. Campbell. Certainly, there is an opportunity cost. You 
know, every dollar a bank spends to--a cost of compliance is 
one less dollar that they can give to the consumer and to allow 
for access to the capital markets. And so, again, I think we 
should right-size--if we are looking at financial regulations, 
we should right-size and tailor them to the activities. And as 
you noted, it is not--it really genuinely is not the actual 
size of the bank, but it is more what the bank is doing that we 
should be looking into. Again, I look forward to working with 
you. I know that you have done a lot of research on this. And, 
of course, as is usually the case, a strong analysis of the 
cost to the consumer needs to be done before any regulations 
are promulgated.
    Senator Cotton. Thank you for that, because in the end what 
we are talking about here are customers of banks, you know, 
consumers, businesses, and so forth. So if you are a farmer 
trying to get a loan for your seed, or you are a young married 
couple with a child on the way that wants to get into a home 
for the first time, or you are a small business that wants to 
expand a factory or maybe you want to create a factory where 
you are going to employ Arkansans, what you want are those 
banks competing for your business. And trust me, they compete a 
lot, even if they have an aligned interest when it comes to not 
complying--or not having to comply with so many onerous and 
needless regulations. And that is where I think our focus 
should be.
    In the time I have remaining, I want to turn, Mr. Compton, 
to you and specifically ask you about the Affirmatively 
Furthering Fair Housing policy of the last Department of 
Housing and Urban Development. Along with about 20 of my 
colleagues, we sent a letter to Secretary Carson last week 
asking him to reverse this policy, which I think is gross 
social engineering, trying to impose nationwide zoning 
standards on communities with very little, if any, evidence of 
discriminatory intent or even discriminatory impact.
    Could you give us your thoughts on the Affirmatively 
Furthering Fair Housing policy?
    Mr. Compton. Yes, Senator, I am glad to do that. 
Affirmatively Furthering Fair Housing comes out of two fairly 
vague and general statements in the Fair Housing Act that 
direct the Department to essentially follow the spirit of the 
law, and from that the prior Administration's Affirmatively 
Furthering Fair Housing rule, while the rule itself is not very 
long, certainly the promulgating releases have a great deal of 
complexity. And I think one of the challenges that we see in 
the rule looking at it on its face is that everyone could pass 
or everyone could fail. And so I think that is--in terms of 
given that that is a regulation that is on the books today and 
that the Department is charged with implementing it, this 
initial implementation of it is really key to ferreting out 
whether it is viable.
    Senator Cotton. Well, thank you. My time has expired. I 
just want to say that I, like you, like Secretary Carson, 
oppose discrimination in all forms and want to make sure that 
that is not happening. But at the same time, we should not be 
using vague and general housing laws to impose a social 
engineer's vision of what communities should look like from 
Washington, DC. That is why we have State and especially local 
governments.
    Chairman Crapo. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, and thank you to the 
nominees for your willingness to serve. Welcome. Welcome to 
your family members. And thank you also for meeting with me. I 
know some I have had the opportunity to meet with. Some of you 
have met with my staff. I really appreciate that opportunity. 
And then for the two of you that I have already talked with on 
Commerce, I am not going to direct my questions to you because 
I have already had the opportunity.
    Let me start with Mr. Rackleff. Mr. Rackleff, on July 5th I 
sent a letter, along with 28 of my colleagues, requesting 
information about LGBTQ nondiscrimination guidance that 
apparently had been pulled down from HUD's website. This 
guidance was arrived at in consultation with direct service 
providers and is meant to help grantees comply with the law.
    When Secretary Carson had been asked about this during 
House and Senate Budget hearings, he said that the Department, 
and I quote, ``was looking at it and determining whether it was 
effective.''
    As head of Community Planning and Development, you will be 
entrusted with ensuring that the CDBG, the HOME Program, and 
homelessness service providers obey their nondiscrimination 
obligations under the law. If confirmed, will you commit to 
promptly restoring the resources to HUD's website?
    Mr. Rackleff. I am not familiar with the details of that 
situation, and so, if confirmed, I can commit to you that I 
will look into it and do what I think is right.
    Senator Cortez Masto. And can you commit to a timeline 
within which you will take a look at that and get an answer 
back to us?
    Mr. Rackleff. Yes, ma'am. I would look at that within 2 
weeks.
    Senator Cortez Masto. Thank you very much. I appreciate 
that.
    And then, Ms. Farias, if confirmed, you will be the Fair 
Housing Chief at HUD. Do you commit to bringing cases enforcing 
against LGBTQ discrimination if the evidence demonstrates that 
there has been a violation of HUD's equal access rules?
    Ms. Farias. Yes, I do.
    Senator Cortez Masto. Thank you. And then, also, HUD 
conducted the first ever study of discrimination faced by LGBTQ 
people in the rental market. Will you commit also to continuing 
this research during your tenure, if confirmed?
    Ms. Farias. Yes, I do.
    Senator Cortez Masto. Thank you very much. I appreciate 
that.
    And then let me just follow up with the conversation you 
had with my colleague, Senator Schatz. I, too, think the 
Housing First model is very appropriate, so I appreciate your 
comments and continuing to support it and work through those 
issues. So thank you very much.
    Mr. Campbell, I have a few questions for you as well.
    Mr. Campbell. Yes.
    Senator Cortez Masto. When the Treasury Department released 
its report seeking to identify ways to roll back financial 
protections, Secretary Mnuchin noted that about 80 percent of 
the report's recommendations could be implemented 
administratively, without Congress. This came as troubling news 
to some of us who think a much more nuanced approach narrowly 
addressing community financial institutions and balancing the 
need for consumer protection is more appropriate.
    As a long-time staffer of the legislative branch, you have 
made it clear that you respect the rollback of Congress in 
exercising its will and providing an important counter-weight 
to the executive branch. If confirmed, will you commit to 
working with Congress in a bipartisan manner when it comes to 
financial rules rather than pushing through 80 percent of its 
report's recommendations without input from Congress as 
proposed?
    Mr. Campbell. Senator, I know from my 17 years working up 
here in this body, the most lasting change that could be made 
is a bipartisan change through the Senate and through the 
Congress. I am aware of some quiet conversations that are 
bipartisan to try to find a path forward, a bipartisan path 
forward to readdressing some regulations that we could perhaps 
find consensus on.
    If confirmed, I look forward to working with you and 
Members of the Committee that are interested, and their staffs, 
to helping facilitate those conversations and trying to find a 
bipartisan legislative path forward to right-size and tailor 
where appropriate regulations related to financial markets and 
financial institutions.
    Senator Cortez Masto. I appreciate that. And then the 
report also, to my chagrin, included no mentions of ways to 
bolster consumer and investor protection, though it has dozens 
of proposals for ways to weaken rules for some of the largest 
banks. And I understand that future reports from the Treasury 
are forthcoming, and you would be in a position to work on such 
reports in your new rule.
    If confirmed, will you work with Congress to incorporate 
recommendations related to needed consumer and investor 
protections in subsequent Treasury reports?
    Mr. Campbell. Senator, I think, if confirmed, there is no 
more important job that I would have than the protection of 
consumers. And, absolutely, you have my firm commitment that I 
will work with you, Members of this Committee, and off this 
Committee to better understand your priorities and, where 
possible, fold those priorities into the reports that are 
forthcoming.
    Senator Cortez Masto. Thank you. And I notice my time is 
almost up. Let me just say thank you all again, incredible 
resumes, incredible backgrounds. And your willingness to serve, 
I so appreciate it. Also, please excuse me for bouncing back 
and forth. I have an Energy Committee going on at the same 
time. But thank you again, and thank you to your family members 
for being here as well.
    Ms. Farias. Thank you, Senator.
    Mr. Campbell. Thank you.
    Mr. Compton. Thank you.
    Chairman Crapo. Thank you very much, and that concludes the 
questioning for the hearing. We have a number of letters in 
support of various candidates, and I ask unanimous consent to 
include those letters in the record. Hearing no objection, that 
is ordered.
    Chairman Crapo. I again want to thank each of you for 
coming and participating today in the hearing, and I thank you 
for your service and your willingness to assist our country.
    For Senators, all follow-on questions need to be submitted 
by the close of business on this Thursday, July 20th. And for 
our witnesses, the responses to those questions should be 
turned in by Monday morning if you can. So please respond 
quickly.
    With that, the hearing is adjourned.
    Senator Brown. Thank you, everybody.
    Chairman Crapo. Senator Brown and I have to run to another 
hearing together.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]
    [Prepared statements, biographical sketches of nominees, 
responses to written questions, and additional material 
supplied for the record follow:]
            PREPARED STATEMENT OF SENATOR RICHARD C. SHELBY
    Mr. Chairman, I believe we have a distinguished group here from Mr. 
Compton to Mr. Campbell. Everybody is ready to go to work. The 
Administration needs these people. I call this a sterling group. I 
would like to say a few words about Mr. Compton. He is well-known in my 
State in the area of housing. As he said in his opening statement, he 
has been involved in development of low-income housing and community 
development. He knows this industry and the related case law. We are 
proud that he is taking a job at HUD, and I am also proud of all of the 
nominees for accepting the responsibility of Federal service. I look 
forward to supporting all of you. I would ask--I have a number of 
questions, but I would submit those for the record and I would like for 
my opening statement to be made a part of the record. Mr. Chairman, I 
hope you and Senator Brown can expedite these nominees as soon as 
possible.
                                 ______
                                 
                   PREPARED STATEMENT OF PAUL COMPTON
   To Be General Counsel, Department of Housing and Urban Development
                             July 18, 2017
    Thank you, Chairman Crapo, Ranking Member Brown, and this entire 
Committee for the opportunity to testify before you today. I am honored 
to have been nominated by the President and, if confirmed, to have the 
privilege to work with and for Secretary Carson.
    I want to begin by introducing my wife of almost 30 years, Dana, 
and our three children: Catherine, Jerome, and Anne. I also would like 
to introduce my son in law, Cameron Pulsifer, who is making his first 
visit to our Nation's capital.
    Mr. Chairman, when I was in law school at the University of 
Virginia I had the distinct honor of visiting with Justice Lewis 
Powell, who had just retired from the Supreme Court and was spending a 
semester at the law school. When I asked him where I should practice 
the law, his response was: ``Go somewhere you can make a difference.''
    I followed that advice. I returned to my native Alabama, where I 
have practiced law with the same firm, Bradley Arant, for 28 years. 
Back in the early years, as a young attorney, I was initially attracted 
to the banking area of legal practice. Increasingly, however, I found 
myself focusing on housing issues. It proved to be a natural fit. I 
realized I could make a profound difference by using the law to help 
create shelter and security for vulnerable people while builders and 
investors reinforced the local economy. So I became more involved in 
affordable housing--and jumped at the chance when asked to find a way 
for a local bank to be an equity partner in a planned apartment 
building to house low-income residents in Tuscaloosa--a novel question 
at the time. I succeeded--with results that were gratifying--and my 
career took on a new emphasis.
    Over the next several years, I represented that bank in 70 
transactions as it grew to become a regional institution, creating more 
than 5,000 units of affordable housing throughout the southeast United 
States. Since then, I've worked on hundreds of affordable housing 
transactions, with other investors, developers, lenders, and public 
housing authorities in public-private partnerships that benefited low-
income housing residents. I've often noted that the complexity of 
transactions goes up exponentially with the number of parties and 
programs involved. And some of these transactions were indeed 
enormously complicated, but we almost always found a way to succeed. I 
encouraged clients to think of themselves as repeat players, to focus 
on their long-term reputation, and to look for win-win solutions. I 
think because of that approach, I was tapped to serve as the outside 
General Counsel to the Alabama Affordable Housing Association.
    Which brings me to the present day and my nomination to serve as 
HUD's next General Counsel. As I look back on Justice Powell's advice 
to me all those years ago, I can't help but think I'm still heeding his 
words to this very day. HUD is a place where I can make a difference 
for our fellow citizens. If confirmed, I will strive each day of my 
tenure to ensure that the Department and its 8,000 dedicated employees 
operate in a legal and ethical manner. I will work to apply the law 
thoughtfully, vigorously and as Congress intended. And I pledge to work 
with all the Members of this Committee to find solutions to our 
Nation's housing challenges, and to eliminate barriers to affordable 
housing.
    Mr. Chairman, I'm grateful to this Committee for holding this 
hearing on my nomination, and what I hope are my two future HUD 
colleagues. I look forward to addressing your questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                PREPARED STATEMENT OF ANNA MARIA FARIAS
   To Be Assistant Secretary for Fair Housing and Equal Opportunity, 
              Department of Housing and Urban Development
                             July 18, 2017
    Thank you, Chairman Crapo, Ranking Member Brown, and all the 
distinguished Members of this Committee.
    I would like to thank President Trump for nominating me to serve as 
HUD's Assistant Secretary for Fair Housing and Equal Opportunity and 
Secretary Carson for his strong support of my nomination.
    I would also like to recognize the person who has been the most 
important part of my life, my mom, Ofelia Gutierrez, who is not here 
today because she is 89 years old and disabled. But she will be 
watching us. I am an only child and my cousins will watch the 
proceedings later because they are working and that is exactly where I 
want them--working.
    I would also like to recognize the Honorable Kim Kendrick, former 
Assistant Secretary under President George W. Bush, and my fellow HUD 
nominees here on the panel. If confirmed, I look forward to working 
with them.
    The mission at HUD is to provide access to safe, affordable housing 
to all Americans and my job would be the Chief Enforcer of the Nation's 
fair housing laws. I am fully, strongly committed to those laws. FHEO 
leads the Nation in the development, enforcement, and public 
understanding of the FairHousing Act.
    I come before you with over 20 years of Federal Government 
experience, including eight at HUD.
    But, before that, you should know that I am a product of public 
housing. I grew up in the Housing Projects of Crystal City, Texas, a 
small town of 8,000. I am the only child of a single mother with a 
third grade education making $12-$20 working 6 \1/2\ days per week as a 
domestic.
    My mother insisted that I get an education. She always said that 
her work was honorable and honest but she wanted something different 
for me.
    My mother was willing to sacrifice in order to give me an 
opportunity to succeed and I quickly realized that hard work in my case 
could achieve success, not just survival.
    As my high school valedictorian, I received a full scholarship to 
Boston University where once again I was blessed to come across someone 
who had my best interest at heart, a young philosophy professor who 
became my mentor. His name: William J. Bennett.
    When he became Secretary of Education, I left a safe Government job 
and spent 4 years working alongside him--never a dull moment.
    In between Administrations, I did the one thing I said I was never 
going to do--go back to a small town. I became the Executive Director 
of the housing developments where I grew up and became one of the first 
Executive Directors in the country to agree to live in the housing 
developments. The Board of Commissioners assigned me to what was then 
called Project Terror, the site of some murders, rapes, child 
prostitution, child pornography and drug dealing. My job was to clean 
it up.
    I was able to do so only because the majority of the residents 
wanted the same things for their children and grandchildren that my 
mother had wanted for me when I was a child--safety and an education. 
Working with the residents, the Housing Authority received over a dozen 
awards and I was inducted into the Texas Woman's Hall of Fame.
    Mr. Chairman, FHEO is an extremely important office to millions of 
Americans. If confirmed, my approach will be what it's always been. To 
follow the statute, the rules, and the facts. I will seek to enforce 
the fair housing laws vigorously and in an impartial manner. And I 
pledge to work in a bipartisan manner with this Committee and all of 
Congress to meet the housing challenges facing our Nation.
    I thank the Members of this Committee for the honor and opportunity 
to appear before you today. I stand ready to answer your questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  PREPARED STATEMENT OF NEAL RACKLEFF
   To be Assistant Secretary for Community Planning and Development, 
              Department of Housing and Urban Development
                             July 18, 2017
    Thank you, Chairman Crapo, Ranking Member Brown, and all the 
Members of this Committee for inviting me to testify today.
    I am delighted to introduce my wife of 29 years, the lovely Christa 
Rackleff. She is the pillar of strength in our family, my best friend, 
and in every way my better. Two of our great children, Eve and Karen, 
are with us today. Our other two children, Stephen and Annie, and our 
son-in-law Brett, were unable to attend. My family is the most 
important thing to me in time and eternity.
    Mr. Chairman, I am honored to be nominated to serve as Assistant 
Secretary of Community Planning and Development at the Department of 
Housing and Urban Development.
    For over 20 years I've worked at the intersection of the public and 
private sectors, doing real estate development focused on resurrecting 
ailing communities and providing high quality housing for hard working, 
good people who--despite their best efforts--are still in need.
    I started on this path as a young city attorney in the mid-90s. 
Downtown Houston was in trouble, property values were declining and 
population was fleeing to the suburbs. Under the direction of a 
visionary Mayor, I served on the team that successfully implemented 
public-private partnerships to redevelop historic downtown properties 
and revitalize a public housing complex that had been mired in 
litigation for years.
    Houston not only turned around, but came roaring back, after these 
projects ignited a downtown renaissance. I was blessed to learn from 
some of the brightest legal and real estate experts in the city's 
history. We used private sector creativity and innovation to achieve 
results with the public sector that neither sector could have 
accomplished alone.
    Public-private partnerships can affect incredible change. For 
example, a terribly blighted apartment complex plagued a Houston inner-
city community. For more than 10 years, local, State and Federal 
officials tried to condemn and demolish the structure, but a wily slum 
lord successfully slipped from their grasp. My team took a different 
approach--we analyzed the market forces at work, then partnered with 
the local school district and used funds, from a tax increment finance 
district and the school district, to purchase and demolish the slum 
property. An elementary school stands today on the former epicenter of 
blight that was dragging down an entire neighborhood.
    My faith has been a formative factor in focusing on families in 
need. I served as the Bishop of an inner-city congregation for many 
years and saw first-hand how hard so many people struggle to meet basic 
needs. And I became convinced that most people struggling with poverty 
desire a hand up rather than a hand out. So I decided to do what I 
could to be part of the solution in helping people become self-reliant.
    That faith motivated me to leave my private law practice at Locke 
Lord and return to the city to serve in the Housing and Community 
Development Department. I hoped to be able to ``give back'' in some way 
to the great city that had afforded my family such great opportunities.
    When I took the reins as Director, the department was struggling. 
Looming over it were 102 HUD findings and over $80 million in potential 
fines. But a great team pulled together and not only cleared every 
finding--we transformed our department to one of the most effective in 
the Nation.
    During my tenure, the department financed completion of 7,800 high-
quality affordable multifamily housing units, with another 2,700 in 
progress. And we assisted 1,700 single-family homeowners with 
reconstruction of hurricane-damaged homes, financial assistance for 
low-income home buyers, and emergency home repairs.
    Houston has an unstoppable ``can-do'' spirit. During this same 
timeframe, the city, Harris County, the for-profit and nonprofit 
sectors, partnered with HUD to alleviate homelessness. Within a few 
years, we reduced chronic homelessness by more than 70 percent and 
became the first major city in the country to effectively eliminate the 
homelessness of veterans.
    Unfortunately, Houston's spirit has been tested by nature's 
catastrophic forces. I am grateful that during my tenure at the Housing 
and Community Development Department, we turned around a troubled $109 
million Disaster Recovery Round 1 program. We also received an 
additional Disaster Relief grant of $178 million in Round 2. I am very 
proud of this work to help the people of Houston as we confronted the 
aftermath of nature's fury.
    I've become convinced that the democratization of data is key to 
more effective governance. In the aftermath of severe flooding, I 
worked with a coalition of faith-based and nonprofit groups to 
alleviate suffering in Houston. We mined the city's fire, police and 
public works databases, to generate GIS maps enabling churches and 
civic groups to locate and serve the elderly and disabled who 
desperately needed help. We then utilized an open-source social media 
platform to share data and avoid duplication of efforts as the various 
philanthropic groups worked together in the same space.
    I have been amazed to see the successes that are possible in 
ameliorating suffering when people put aside differences and ideologies 
in a united effort to help their neighbors. Love has animated the work 
I have been a part of and I have loved serving others. The reason I am 
offering to serve at HUD is that I hope to have the opportunity of 
doing more to help my fellow Americans.
    Mr. Chairman, thank you for this opportunity to appear before you. 
Thank you to the entire Committee. I welcome your questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  PREPARED STATEMENT OF RICHARD ASHOOH
  To be Assistant Secretary for Export Administration, Department of 
                                Commerce
                             July 18, 2017
    Thank you Chairman Crapo, Ranking Member Brown, and distinguished 
Members of the Committee. I am honored to have this opportunity to 
appear before you today, and am grateful to the President and the 
Secretary of Commerce for their confidence in me to serve in this 
capacity. I would like to acknowledge and thank the members of my 
family who are joining us, as well as the many friends in the room. 
Their support means a great deal to me. I would also like to 
acknowledge the memory of Senator Warren Rudman, who was a boss, mentor 
and friend. His example of fidelity to the country, to his colleagues, 
and to the Constitution still stands as guiding principles in my own 
life.
    Everyone in America is familiar with the Boston Tea Party. But you 
would have to hail from New Hampshire as I do to have any idea of the 
Pine Tree Riot. Briefly, the Pine Tree Riot was a pre-revolutionary 
protest in New Hampshire against the British Crown's attempt to 
regulate the colonial pine tree trade. This is significant because 
these mighty pine trees made the best ships' masts, and the King 
reserved them for the Royal Navy, allowing Great Britain to project 
power all over the world. The colonists rejected this intrusion into 
their economy and livelihoods, and the Pine Tree Riot was one of 
several incidents that led the way to Revolution.
    Why this obscure history lesson? Those pine trees were the turbofan 
engines of their day--technology that was vital both to national 
security and civilian commerce. The Crown's behavior was in effect an 
export control--one that didn't work out very well for the King. The 
point is the need to weigh the national security implications of our 
technology trade has been with us since before we were a Nation.
    The position to which I have been nominated sits at the 
intersection where national security, technology, and the economy meet. 
Never has this juncture been more critical. The number and nature of 
the threats facing our nation--from state and nonstate actors alike--
has grown. Meanwhile, the pace of technology has not only accelerated 
dramatically--it has shifted. The national security establishment once 
led areas of technology development that are now driven by the 
commercial sector. The responsibility for eliminating the 
vulnerabilities to our Nation presented by these dynamic shifts--while 
encouraging robust trade in the technology sector--rests squarely with 
the Bureau of Industry and Security. The workload at BIS--which has 
increased and will continue to do so--further reflects these trends.
    Both my desire and readiness to serve in this capacity is a product 
of a career spent advancing key elements of this mission. Early in my 
career as a Senate staffer, I was privileged to work on issues 
concerning technology transfer--both illicit and inadvertent--to 
adversary nations. It is noteworthy that the global parties of concern 
at that time--specifically China, the Soviet Union, and Iran--occupy 
more or less the policy priorities BIS faces today. After more than two 
decades of experience in the aerospace industry, where I was able to 
work on behalf of some of our Nation's most advanced technology 
enterprises, the strictures of the U.S. export control regime were, and 
still are, well known to me. I understand better than most both the 
challenges and necessities associated with technology development, 
believing that our success as a Nation is underpinned by our ability to 
remain ahead of our adversaries in this area, both commercially and 
strategically.
    These experiences have imparted to me countless lessons that can 
help advance the critical mission of the Bureau, especially in these 
challenging times. Should I be honored with confirmation, I would look 
forward to working with you as we endeavor to meet these challenges.
    Thank you again for the privilege of being with you today, and I 
look forward to your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               PREPARED STATEMENT OF ELIZABETH ERIN WALSH
 To be Assistant Secretary for Global Markets and Director General of 
   the United States and Foreign Commercial Services, Department of 
                                Commerce
                             July 18, 2017
    Thank you Chairman Crapo, Ranking Member Senator Brown, Members of 
the Banking Committee. I am grateful for the opportunity to appear 
before you today. I am very honored to be here as the President Trump's 
nominee for Assistant Secretary for Global Markets and D.G. for the 
U.S. and Foreign Commercial Service.
    And I am so honored to have my family with me on this special day. 
If you don't mind, I would like to take a moment to introduce them. My 
mother, June and my father Michael a retired attorney--they both served 
in the Reagan and Bush administrations. My sister Molly, currently 
serving at the Department of Defense and my beloved sister Anne. While 
my parents met in Washington, we grew up in Portland Oregon.
    I bring to this nomination over 30 years of public and private 
sector experience. During this time, I have built a strong track record 
in four key areas: Strategy and Program Development for market entry/
expansion, political and/or policy advancement; Design-Build Scalable 
Models to promote products or programs regionally or globally; Complex 
Negotiations; and Public-Private Partnership Creation at local, 
national and international levels. I have extensive knowledge of 
foreign affairs in Asia, Middle East, and Africa and have traveled or 
worked in 100 countries.
    I earned my undergraduate work at Georgetown University and started 
as an intern for 3 years at the White House before landing a full-time 
position in the Office of Political Affairs. I also worked at the 
Department of Energy, and from there had the opportunity to join the 
U.S. Department of State and serve as the Deputy Manager and then 
acting Manager of Blair House, the President's guest house. During my 
tenure there, we hosted over 60 heads of State and Governments. I was 
then asked by Ambassador Thomas Pickering to come to the U.S. Mission 
to the U.N. and serve as Chief of Protocol. It was an incredible 5 
years in the world's largest diplomatic community. But starting in 1992 
I started to see cables come across my desk that seemed unimaginable. 
Particularly after witnessing the revolutionary fall of the Berlin wall 
in 1989 and the euphoria that came with it. These cables referred to 
the conflict in Bosnia. As I continued to read the news and the cables 
I felt I had to go to see for myself. I resigned my position at USUN to 
join UNICEF as head of emergency operations in Tuzla during in 1994. I 
later left Bosnia to attend graduate school at the London School of 
Economics and then returned to Sarajevo to work with the U.N. as an 
Economic and Political Affairs Officer. In preparing for post war 
conflict operations, there was an enormous gap in the lack of focus on 
economic development and investment. Over 20 years later, we can see 
the outcome and results today. No economic development, high 
unemployment and the presence of ISIS in Europe.
    After returning from Bosnia, I came home and wrote a proposal 
focused on Education, Technology and job creation and got an offer from 
Cisco. The firm provided a platform allowing me to build a strong 
partnership organization to bring the Cisco Networking Academy Program 
to 90 countries, in Africa, Asia Pacific, central America and included 
41 of the Least Developed Countries in the world. In the late 1990s we 
began to strong Chinese investment in these areas. Times were changing 
and so was the playing field.
    After several years in the private sector, I returned to the State 
Department in 2005 to serve as Senior Advisor in the Bureau of Near 
Eastern Affairs. I was recruited to formulate and execute a strategic 
plan to advance U.S. policy interests, strengthen alliances and 
establish and/or expand programs focused on women across 16 countries 
in the Middle East and North Africa. I also served on the U.S.-Saudi 
Arabia Strategic Dialogue, Human Development Working Group.
    I was then hired by Goldman Sachs to lead the firm's philanthropic 
activities in Asia Pacific. I developed a long-term strategic platform 
in Asia, seeking to foster economic growth and opportunity, through 
investment in the community, public engagement and partnership 
building. I incorporated global Goldman Sachs Foundation programs and 
Goldman Sachs Gives, and created a portfolio of multi-year, regional 
and country specific programs aligned with the firms focus and the 
economic/development goals of 11 countries where investments had been 
made. Major programs included: Goldman Sachs 10,000 Women Initiative 
(40 percent of women from Asia); China Breast Cancer Initiative.
    From what I have seen first-hand the role that the private sector 
can play in facilitating and enhancing America's prominence abroad and 
in advancing U.S.
values.
    I know the critical role the U.S. Government plays in leveling the 
playing field to ensure U.S. companies can compete abroad, and to 
ensure that our foreign competitors abide by their commitments and play 
by the same rules.
    I have also seen what happens when U.S. policy is not carried out 
or implement in a way that facilitates business.
    I am passionate about the mission of the Department of Commerce and 
can think of nothing more meaningful or impactful than creating jobs 
through promoting U.S. exports or attracting foreign direct investment 
into the United States. In addition, I believe the direction that 
Secretary Ross is taking to ensure we have fair and reciprocal trade 
with our partners will ensure America's continued growth and vitality.
    I am deeply grateful to President Trump and Secretary Ross for 
their leadership. I am honored to be nominated by the President and am 
grateful to the Secretary for his confidence and support.
    In the past couple of weeks, I have had the opportunity to meet 
with a number of the dedicated civil servants and foreign commercial 
officers who constitute the leadership of the International Trade 
Administration's Global Markets, and the U.S. Foreign Commercial 
Service, and I find in them a kindred spirit, one that is driven to 
help American companies succeed. Because they share my belief that 
there is nothing more meaningful or powerful than helping to create 
jobs that put people to work. Trade, exports and FDI are a powerful 
engine for economic growth. With 95 percent of the world' population 
outside of the United States and more than 1 in 5 American jobs 
supported by trade, the Office of Global Markets has a critical role to 
play. Last year alone, for every $1 appropriated to Global Markets, an 
estimated $192 was returned to the American economy in the form of 
increased exports and foreign direct investments for a total impact of 
$62.2 billion, which supported approximately 300,000 U.S. jobs.
    If confirmed I look forward to having the opportunity to lead this 
organization, and will bring to it my global experience and business 
background as well as my knowledge of how to leverage Government 
resources to ensure its efficiency and effectiveness. Thank you for 
your time today and for your consideration of my nomination.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               PREPARED STATEMENT OF CHRISTOPHER CAMPBELL
To be Assistant Secretary for Financial Institutions, Department of the 
                                Treasury
                             July 18, 2017
    Chairman Crapo, Ranking Member Brown, and distinguished Members of 
the Senate Banking Committee, thank you for the opportunity to appear 
before you today and for considering my nomination to be Assistant 
Secretary of the Treasury for Financial Institutions. I am deeply 
honored and humbled to have been selected for this position and am 
grateful to President Trump and Secretary Mnuchin for this opportunity 
to continue my career in public service in a different venue.
    Before I get too far into my statement, I do want to recognize the 
members of my family who are in attendance today. With me today are my 
sister Michelle, my brother-in-law Richard, my brother Eric and my 
sister Catherine. I also want to acknowledge my two other siblings that 
could not make it here today, my brothers Scot and Marc. My mother also 
would surely like to be here today, however she is too ill to travel. 
But, I know she is watching from home. While my father passed away a 
few short years ago, I know that he would have been proud to sit in 
today's audience as well. I also want to acknowledge the many friends, 
colleagues, and former colleagues who are here, many of whom have flown 
in for the occasion.
    I want to thank every one of them for being here and for their love 
and support. One does not receive opportunities like this without years 
of help from many, many people, and that is certainly the case for me.
    I come from the humblest of beginnings. I lived most of my 
childhood in poverty, really never thinking that I would be afforded 
the opportunities that have been presented to me over the last two 
decades.
    The first great opportunity that came my way was the chance to join 
Senator Orrin Hatch's campaign for President as the National Field 
Director. I think Senator Hatch would agree that, after that initial 
experience in politics and public service, there was nowhere to go but 
up.
    Despite the results of that particular campaign, the Senator asked 
me to run his 2000 Senate reelection campaign. This was, to say the 
least, a lot of responsibility for a relatively inexperienced kid, but, 
thankfully, the campaign was a huge success and I have worked with 
Senator Hatch in a variety of capacities since that election, most 
recently as Staff Director for the Senate Finance Committee.
    I am, of course, grateful to Senator Hatch for his support and 
encouragement over these many years. He has been a mentor to me and I 
certainly would not be here if not for his skillful tutoring.
    During my time in the Senate, I have worked very hard to cultivate 
a reputation for three things.
    First and foremost, I have sought to be known as an effective 
advocate and strategist for achieving the goals of my employer, whether 
it is the Senator or the Committee.
    Second, I have worked to be known as one who prefers and 
effectively facilitates bipartisan cooperation. Throughout my career, I 
have begun every effort with the presumption that a bipartisan result 
would be preferable and more enduring than a partisan one, and have 
worked to achieve those types of outcomes.
    Finally, I have endeavored to build a reputation for being a good 
manager and leader. On the Finance Committee, Chairman Hatch and I have 
put together an effective and professional staff. Leading this team has 
been one of my proudest professional achievements.
    Our committee has the broadest jurisdiction of any in Congress, 
encompassing every page and word of the tax code, all major Federal 
health programs, huge portions of the social safety net, including 
Social Security, and our Nation's trade policy. Overseeing the 
Republican efforts on the committee has required not only policy 
knowledge and experience, but also the ability to manage different 
people with varying skillsets and expertise.
    And, I believe we've been successful. In the last Congress alone, 
the Finance Committee reported a record number of bills--several dozen 
in fact--all of them bipartisan. And, the vast majority of those bills 
were eventually signed into law.
    I can't take credit for everything the Finance Committee has 
accomplished while I've been there. The credit belongs to Chairman 
Hatch, Ranking Member Wyden, and Senator Baucus, who was chairman when 
I first started there, and all of the Members on both sides of the 
dais.
    But, once again, during my time on the committee--and throughout 
all my time in the Senate--I have sought to leave a mark and build a 
reputation for being an effective advocate, a bipartisan facilitator, 
and a strong leader.
    Chairman Crapo, Ranking Member Brown, I have had to privilege to 
work closely with both of you, as well as with many other Members of 
this Committee. As you consider my nomination, my hope is that my 
efforts to build that kind of reputation have been successful and that 
I have displayed to you those types of characteristics.
    The Assistant Secretary of the Treasury for Financial Institutions 
is responsible for leading Treasury's efforts to monitor and regulate 
our Nation's banks and securities markets and to ensure our financial 
sector is resilient in times of crisis. In addition, it is responsible 
for coordinating, among other things, Treasury's work on financial 
education, consumer protection, community development, affordable 
housing, and cybersecurity.
    In other words, the position has a broad focus, dealing with our 
largest banks and investment companies as well as small community 
organizations. This is not unlike the broad jurisdiction of the Senate 
Finance Committee. Successful leadership from this position will 
require great management skills and the help of the talented career 
staff at the department. In addition, it will require the ability to 
balance what are, at times, competing interests of financial 
institutions--large and small--their customers and practices, and the 
American taxpayers. I believe that my experience has prepared me well 
for this position.
    I think it's safe to say that few, if any, nominees considered by 
this Committee have ever been more cognizant of the need for 
cooperation between Congress and agencies in the executive branch. If 
confirmed, I will look forward to working with the Members of this 
Committee to ensure safety and soundness of financial institutions and 
practices, fairness, and avenues through which the financial sector 
works to facilitate economic growth and opportunities for all 
Americans.
    Distinguished Members of the Committee, thank you for consideration 
of my nomination and I look forward to answering your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   RESPONSE TO WRITTEN QUESTIONS OF SENATOR BROWN FROM PAUL 
                            COMPTON

Q.1. There is broad agreement in the courts that the Federal 
Fair Housing Act applies to discriminatory practices of 
homeowners' insurers. In the more than 20 years since the Fair 
Housing Act was amended and HUD issued interpretive 
regulations, every court to consider the issue has held that 
the Fair Housing Act prohibits acts of discrimination by 
homeowners' insurers. Specifically, courts have found that the 
discriminatory practices of homeowners' insurers violate 42 
U.S.C.  3604(a), (b) and  3605.
    Courts have found that because the ability to obtain 
insurance is inexorably linked to the ability to obtain 
housing--i.e., adequate insurance is necessary to own or rent 
housing--insurance discrimination violates the ``otherwise make 
unavailable or deny'' provision of section 3604(a).
    Given the strong case law concerning the applicability of 
the Fair Housing Act to the insurance industry, what is your 
position on HUD's Discriminatory Effects rule and its 
applicability to the insurance industry?

A.1. If confirmed, I would be responsible for the Department's 
enforcement and litigation involving the Discriminatory Effects 
rule. As I have been informed by HUD staff that there is 
currently pending litigation, it would be inappropriate for me 
to comment on this matter.

Q.2. Do you support HUD's Affirmatively Furthering Fair Housing 
(AFFH) rule, and will you commit to implementing it?

A.2. Based on my reading and understanding of it, and without 
the benefit of any discussions with HUD personnel, the AFFH 
rule seeks to integrate communities by requiring States, 
municipalities, public housing authorities and every other key 
recipient of HUD funding to develop a plan to move affordable 
housing resources into areas deemed to have a higher quality of 
life or otherwise bring other resources into lower income or 
more segregated areas.
    The AFFH rule appears to be closely linked to disparate 
impact analysis, though it in principal part predates the 
Supreme Court's guidance in Texas Department of Housing and 
Community Affairs v. Inclusive Communities Project. Inc. The 
AFFH rule appears to presume that geographic units that are not 
reflective of the broader community's make up, in terms of 
protected classes of persons under the FHA, are indicative of 
violations of the FHA's admonition to HUD to ``affirmatively 
further the policies of the FHA''. This would require the 
funding recipients in these areas to take the actions that HUD 
has approved in the recipient's plan to change this situation.
    The AFFH rule, which does not set forth objective standards 
but instead sets forth a planning process with HUD data and 
discretionary approval authority, likely requires localities 
receiving HUD funding to change their own policies, ordinances 
and local funding priorities in order to achieve the purposes 
the goals set forth in their plan once it has been approved by 
HUD.
    The Supreme Court in its Inclusive Communities opinion has 
given HUD a roadmap for use of disparate impact analysis under 
the Fair Housing Act. Statistics, without more, are not enough. 
The Court has called for findings of robust causality. 
Disparate impact data can be a powerful tool in identifying 
discriminatory intent but, as with all tools, should be used in 
appropriate circumstances.
    If I am fortunate enough to be confirmed, I believe that 
implementation of the AFFH rule will need to reflect the 
interpretation of the Fair Housing Act by the Supreme Court in 
Inclusive Communities, be mindful of principles of federalism 
and not place undue bureaucratic burdens on local 
municipalities and public housing authorities, among others. We 
will have to see the results of implementation of the current 
regulation in order to better evaluate the policy. Fair housing 
should, in my mind, be about ensuring individual rights.
                                ------                                


   RESPONSE TO WRITTEN QUESTION OF SENATOR SHELBY FROM PAUL 
                            COMPTON

Q.1. Mr. Compton, you have practiced housing law for almost 30 
years. With that experience, you surely understand many aspects 
of the housing industry.
    If confirmed, what actions will you take at HUD to increase 
the efficiency and productivity of the Office of the General 
Counsel?

A.1. If I am fortunate enough to be confirmed, I will seek to 
ensure that headquarters and regional office OGC staff 
communicate clearly and frequently to ensure that HUD's laws 
and regulations are interpreted and enforced consistently and 
effectively.
                                ------                                


RESPONSE TO WRITTEN QUESTIONS OF SENATOR REED FROM PAUL COMPTON

Q.1. The Office of General Counsel is responsible for working 
with senior policy officials and staff to develop and draft the 
Department's legislation and major regulations, notices of 
policy statements, and other key notices of the Department. How 
do you intend to work with senior leadership and across program 
areas to design and implement legislative and regulatory 
changes, and what changes will you prioritize during your 
tenure at HUD? Further, what changes if any do you intend to 
make to HUD's fair housing, LGBT, and Lead Paint regulations? 
How might the Presidential Executive Order on Reducing 
Regulation and Controlling Regulatory Costs impact your ability 
to execute this agenda?

A.1. If I am fortunate enough to be confirmed, I will work 
collaboratively with the program offices to ensure that 
implementation of legislative and regulatory changes is 
completed expeditiously and within the bounds of the law. If 
confirmed as the General Counsel, I would apprise the 
appropriate program offices on the Office of General Counsel's 
assessment of the legality of any proposed changes to HUD 
programs, including, but not limited to, fair housing, LGBTQ 
and Lead Paint regulations. It is my understanding that HUD has 
established a taskforce to review regulations and I look 
forward to understanding, and constructively participating in, 
streamlining burdensome regulations to help HUD better achieve 
its important mission.
                                ------                                


  RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM PAUL 
                            COMPTON

Q.1. In 2013, you told the Weekly Standard regarding HUD's AFFH 
efforts, ``It's a real shift in emphasis from ensuring that the 
private sector and participants in Federal programs don't 
unlawfully discriminate to defining the existence of racially 
and ethnically `segregated' neighborhoods to be in themselves a 
violation of fair housing.''\1\ Keeping in mind that you 
affirmed to the Committee during your nomination hearing that 
you intend to implement the AFFH rule, could you please explain 
what you meant in your comments to the Weekly Standard in 2013?
---------------------------------------------------------------------------
    \1\ http://www.weeklystandard.com/huds-power-grab/article/759151.

A.1. As the AFFH rule was in the process of being promulgated, 
I was one of a number of persons a journalist asked to comment 
on it. As I read and understood the promulgating release at the 
time, without the benefit of any discussions with HUD 
personnel, the AFFH rule sought to integrate communities by 
requiring States, municipalities, public housing authorities 
and every other key recipient of HUD funding to develop a plan 
to move affordable housing resources into areas deemed to have 
a higher quality of life or otherwise bring other resources 
into lower income or more segregated areas.
    The AFFH rule appears to be closely linked to disparate 
impact analysis, though it in principal part predates the 
Supreme Court's guidance in Texas Department of Housing and 
Community Affairs v. Inclusive Communities Project, Inc. The 
AFFH rule appears to presume that geographic units that are not 
reflective of the broader community's make up, in terms of 
protected classes of persons under the FHA, are indicative of 
violations of the FHA's admonition to HUD to ``affirmatively 
further the policies of the FHA.'' This would require the 
funding recipients in these areas to take the actions that HUD 
has approved in the recipient's plan to change this situation.
    The AFFH rule, which does not set forth objective standards 
but instead sets forth a planning process with HUD data and 
discretionary approval authority, likely requires localities 
receiving HUD funding to change their own policies, ordinances, 
and local funding priorities in order to achieve the purposes 
the goals set forth in their plan once it has been approved by 
HUD.
    The Supreme Court in its Inclusive Communities opinion has 
given HUD a roadmap for use of disparate impact analysis under 
the Fair Housing Act. Statistics, without more, are not enough. 
The Court has called for findings of robust causality. 
Disparate impact data can be a powerful tool in identifying 
discriminatory intent but, as with all tools, should be used in 
appropriate circumstances.
    If I am fortunate enough to be confirmed, I believe that 
implementation of the AFFH rule will need to reflect the 
interpretation of the Fair Housing Act by the Supreme Court in 
Inclusive Communities, be mindful of principles of federalism 
and not place undue bureaucratic burdens on local 
municipalities and public housing authorities, among others. We 
will have to see the results of implementation of the current 
regulation in order to better evaluate the policy. Fair housing 
should, in my mind, be about ensuring individual rights.

Q.2. In the 114th Congress, I introduced the Senate version of 
the Housing Opportunity Through Modernization Act (HOTMA). The 
legislation was passed unanimously in both the House and 
Senate, and it was signed into law on July 29, 2016. HUD has 
begun the process of implementing some of the provisions, but 
many rulemakings remain outstanding. As General Counsel, you 
will play an important role in the rulemaking process. What 
will you do to prioritize rulemakings mandated by HOTMA?

A.2. HOTMA enacted several important reforms for HUD, including 
streamlining and burden-reducing changes to the Section 8 and 
Public Housing programs, creating a special assistant for 
veterans affairs in the Office of the Secretary, and updating 
the distribution formula for the Housing Opportunities for 
Persons with AIDS (HOPWA) program. HUD has already implemented 
some of these provisions where permitted by notice, which 
included receiving public comment on that implementation. This 
public comment will inform future rulemaking efforts.
    Senator, I will remain mindful of your interest in this and 
the broad congressional support for this legislative 
initiative.
                                ------                                


RESPONSE TO WRITTEN QUESTIONS OF SENATOR BROWN FROM ANNA MARIA 
                             FARIAS

Q.1. There is broad agreement in the courts that the Federal 
Fair Housing Act applies to discriminatory practices of 
homeowners' insurers. In the more than 20 years since the Fair 
Housing Act was amended and HUD issued interpretive 
regulations, every court to consider the issue has held that 
the Fair Housing Act prohibits acts of discrimination by 
homeowners' insurers. Specifically, courts have found that the 
discriminatory practices of homeowners' insurers violate 42 
U.S.C.  3604(a), (b) and  3605.
    Courts have found that because the ability to obtain 
insurance is inexorably linked to the ability to obtain 
housing--i.e., adequate insurance is necessary to own or rent 
housing--insurance discrimination violates the ``otherwise make 
unavailable or deny'' provision of section 3604(a).
    Given the strong case law concerning the applicability of 
the Fair Housing Act to the insurance industry, what is your 
position on HUD's Discriminatory Effects rule and its 
applicability to the insurance industry?

A.1. My understanding is that there is pending litigation, to 
which HUD is a party, concerning this matter. As such, it would 
be inappropriate for me to comment until those cases are 
resolved

Q.2. There are approximately 495 full-time employees at HUD's 
office of Fair Housing and Equal Opportunity, the lowest 
staffing level since 1989. According to the President's budget 
request, HUD would receive $2.2 million less for salaries and 
expenses for FY 18. In 2008, the bipartisan National Commission 
on Fair Housing and Equal Opportunity led by former HUD 
Secretaries Jack Kemp and Henry Cisneros recommended that FHEO 
needed at least 750 FTEs for the fair housing office. This work 
includes reviewing and investigating complaints of sexual 
harassment by landlords, explicit preferences landlords make 
saying no children are allowed in an apartment, and other forms 
of housing discrimination no one should ever have to 
experience.
    As FHEO Assistant Secretary, what would you do to increase 
FHEO staffing to address fair housing enforcement and 
education, or meet the existing investigation, policy, and 
technical assistance requirements of the office?

A.2. I support the Secretary's plan for reforming Government, 
which calls on us to find efficiencies to maximize the impact 
of our staff. The dedicated employees in FHEO may be better 
aided in their enforcement, education and compliance work 
through improved technology or skills enhancement. If confirmed 
as Assistant Secretary, one of the first things I will do is 
look at FHEO's processes and procedures to ensure we are 
getting the most value out of our spending. I will look at how 
roles and responsibilities are organized to ensure they are 
aligned to achieve maximum benefit. I will also ensure 
employees that underperform are held accountable. Finally, I 
will talk to the employees of HUD, who, no doubt, have many 
ideas for improving the Department's operations.
    The mission of the Office of FHEO is critical to the 
Department and the country, and, if confirmed as Assistant 
Secretary, I will do everything I can to ensure it has the 
resources it needs and that those resources are used to maximum 
effect.
                                ------                                


 RESPONSE TO WRITTEN QUESTION OF SENATOR REED FROM ANNA MARIA 
                             FARIAS

Q.1. According to HUD's website, ``the Fair Housing Act 
protects people from discrimination when they are renting, 
buying, or securing financing for any housing. The prohibitions 
specifically cover discrimination because of race, color, 
national origin, religion, sex, disability, and the presence of 
children''--also colloquially known as the Fair Housing Act's 
protected classes. If confirmed, will you treat each of the 
protected classes equally in vigorously enforcing the Fair 
Housing Act?

A.1. Senator, you have my commitment that, if confirmed, I will 
vigorously enforce the Fair Housing Act and always treat each 
of the protected classes equally.
                                ------                                


  RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM ANNA 
                          MARIA FARIAS

Q.1. HUD's Office of Fair Housing and Equal Opportunity has a 
critical role to play in disaster recovery funding. In New 
Jersey after Superstorm Sandy, it wasn't just homeowners 
impacted by the storm. Renters, a higher-share of whom are 
African Americans and Latinos, were subjected to long waiting 
lists, lengthy delays, and denial of assistance without ever 
finding out why. Complicating matters, there were reports that 
the State's Spanish language website contained incorrect 
instructions and wasn't corrected until it was too late to 
apply. We also saw reports of disproportionately higher 
rejection rates for African Americans and Latinos. Even if 
there was no intentional discrimination, a disparate impact is 
still cause for significant concern. What will be your approach 
to investigating such claims should they arise in the future, 
and how will you ensure fair and equitable treatment in 
disaster recovery funding for all individuals?

A.1. Based on HUD's experience during Superstorm Sandy, we know 
we must be especially alert to any differences in services 
provided to people, based on race or national origin. At the 
first mention of such allegations, I will investigate and take 
steps to make sure everyone is treated fairly. This includes 
making sure recipients of HUD funds provide the same 
information to all persons about their rights and the relief 
available. In communities where significant populations speak 
languages other than English, like Spanish, we will make sure 
recipients provide all the same information in those languages 
(on websites and in other forms), so they can timely benefit 
from all the same services and relief. The primary goal is to 
prevent such problems from occurring in the first place. As 
Assistant Secretary, I would do all I can to provide guidance, 
technical assistance, and best practices so that when 
governments are reacting to a disaster they can easily comply 
with the law.

Q.2. HUD's Office of Fair Housing and Equal Opportunity is 
responsible for enforcing fair housing laws and ensuring fair 
access to housing for all Americans. For many new Americans and 
others for whom English is not their first language, fair 
access to housing includes having resources and translations 
available to them that are clear, consistent, and accurate, as 
well as protection from discriminatory housing decisions based 
solely on their limited English language abilities.

  <bullet>  Can you describe what your approach would be at HUD 
        regarding limited English proficiency access?

  <bullet>  Can I have your commitment to make this a priority 
        if you are confirmed?

A.2. Over 25 million people in the United States, approximately 
9 percent of the overall population, are limited in their 
English proficiency. Title VI of the Civil Rights Act of 1964 
and Executive Order 13166 require that Federal agencies ensure 
that people with limited English proficiency (LEP) have 
meaningful access to programs that receive HUD funding. The 
responsibility for ensuring the Department and its recipients 
comply with that important civil rights responsibility falls to 
the Office of Fair Housing and Equal Opportunity. If confirmed 
as Assistant Secretary, I would review the language access 
services presently available in the Department and engage in 
extensive outreach to make sure all populations know how to 
utilize the services HUD provides.

Q.3. In September, HUD issued new guidance on protections under 
the Fair Housing Act for people with limited English 
proficiency. As explained in the guidance, housing providers 
are prohibited from using limited English proficiency 
selectively or as an excuse for intentional housing 
discrimination. In addition, the guidance clarifies that 
landlords are prohibited from using limited English proficiency 
in a way that causes an unjustified discriminatory effect.
    Do you agree with the contents of this guidance?

A.3. Yes, the Fair Housing Act protects individuals from 
discrimination based on their national origin. One common proxy 
for national origin discrimination is discrimination against 
persons based on their English proficiency. This discrimination 
is illegal regardless of the form--discriminatory treatment or 
discriminatory effect. If confirmed as Assistant Secretary for 
Fair Housing, I will follow this guidance to ensure all 
individuals are protected from discrimination.

Q.4. It is estimated that each year more than four million acts 
of discrimination occur in the rental housing market alone, but 
only a small fraction of these acts are reported.

Q.4.a. How will you ensure fair housing education, testing, and 
enforcement are priorities for HUD?

A.4.a. Even one family denied housing because of their race, 
color, religion, sex, national origin, disability, or familial 
status is too many. I believe it is imperative that the 
Department do a better job in educating housing providers about 
the Fair Housing Act in order to prevent discrimination and 
educate the public about their rights and the advocacy services 
available so they can get redress for their injuries if 
discrimination occurs.
    But education is not enough. We must be prepared to 
vigorously enforce the law through our enforcement authorities 
at HUD. We must also support State and local enforcement by our 
State and local partners through the Fair Housing Assistance 
Program, and support the work, including testing, by the Fair 
Housing Initiatives Program organizations.

Q.4.b. How do you plan to operate and oversee fair housing 
programs to deliver capacity and resources to local 
governments, fair housing agencies, and other key stakeholders?

A.4.b. I see the work of FHEO as part of a three-pronged plan 
that supports fair housing in this country. First, there's HUD. 
Then, we are joined in this effort by our partners in the Fair 
Housing Initiatives Program, where nonprofits assist 
individuals informally and ensure that the general public and 
housing providers are educated about fair housing rights and 
responsibilities. Third, we have our State and local partners 
in the Fair Housing Assistance Program, who provide a local 
face for civil rights enforcement and investigate 80 percent of 
Fair Housing Act cases in the country.
    For FY 2018, the funding the President requested for fair 
housing programs was equal to the amount provided by Congress 
for 2016 and 2017. This Administration is committed to 
upholding fair housing. If confirmed, I will continue that 
strong support for State and local governments and fair housing 
organizations.
                                ------                                


   RESPONSE TO WRITTEN QUESTIONS OF SENATOR BROWN FROM NEAL 
                            RACKLEFF

Q.1. The mayors of small towns in Ohio say that CDBG grants are 
critical in improving their infrastructure and meeting their 
community and economic development goals.
    Would you agree with their assessment that CDBG is an 
important tool in their efforts to ensure that small town 
America is not left behind in our economy? How have you seen 
CDBG used to help small towns and rural areas in their 
community and economic development efforts?

A.1. In my experience, CDBG funding can be used to effectively 
improve infrastructure in meeting community and economic 
development goals.
    In Texas, a great deal of the CDBG funding administered by 
the State is used to help small towns and rural areas improve 
infrastructure through projects such as road construction and 
improvement or expansion of water and sewer facilities.

Q.2. Mr. Rackleff, it is no secret that the President's FY 2018 
budget would eliminate many of the programs that you would 
administer at CPD, if confirmed. That proposal was deeply 
disappointing. Many of my colleagues and I are working to make 
sure that does not happen.
    Can you tell us how you used these programs in your housing 
and community development work in Houston?

A.2. In Houston, we used the CDBG grant funds we received 
effectively to promote community development, eliminate blight, 
repair and replace housing damaged from weather disasters and 
to provide public services and facilities to Houstonians in 
need. Nearly all the CDBG funding expended on housing did not 
come from traditional annual CDBG grants but rather from 
special congressional appropriations related to disasters.
    The traditional CDBG fending the city of Houston received 
was reduced dramatically during my tenure. In 2011, Houston 
received $35.8 million in CDBG funding--by 2015 that amount had 
dwindled to $22.9 million--a 36 percent reduction.

Q.3. In recent months, HUD has withdrawn two Notices and 
removed from its website several resources intended to carry 
out its policies to ensure housing rights for LGBTQ 
individuals. This includes LGBTQ youth, who make up nearly 40 
percent of all homeless youth. The withdrawn Notices were 
designed to 1) require HUD-participating housing providers to 
display information regarding the rights of LGBTQ individuals 
and 2) collect information necessary to evaluate the 
effectiveness of an LGBTQ youth homelessness demonstration 
program.
    If confirmed, will you work to reinstate these notices and 
guidance? If not, why not?

A.3. Senator, I have not had the opportunity to examine this 
particular matter yet. As I stated during my confirmation 
hearing, in response to a question from Senator Cortez Masto, 
if confirmed, I pledge to look into this issue within my first 
2 weeks.
                                ------                                


   RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY FROM NEAL 
                            RACKLEFF

Q.1. Mr. Rackleff, your work in the city of Houston involved 
serving many families using HUD grants. Your new role at HUD 
will involve oversight of the Community Development Block Grant 
program.

Q.1.a. What is your experience with the Community Development 
Block Grant program in Houston?

A.1.a. In Houston, we used the CDBG grant funds we received 
effectively to promote community development, eliminate blight, 
repair and replace housing damaged from weather disasters and 
to provide public services and facilities to Houstonians in 
need. Nearly all the CDBG funding expended on housing did not 
come from traditional annual CDBG grants but rather from 
special congressional appropriations related to disasters.
    The traditional CDBG funding the city received was reduced 
dramatically during my tenure. In 2011, Houston received $35.8 
million in CDBG funding. By 2015 that amount had dwindled to 
$22.9 million--a 36 percent reduction.
    Notable projects include development of a grocery store in 
a food desert and redevelopment of a vacant historic office 
building in downtown Houston, which is now a beautiful JW 
Marriott hotel. On that project, we made an approximately $7 
million loan to the hotel and were fully repaid with interest 
within about 2 years. We invested $9.3 million total in these 
two projects, creating 278 jobs and leveraging a total 
investment of $85.7 million.

Q.1.b. How did the program help you and the city of Houston?

A.1.b. The program enabled us to create jobs, redevelop 
historic and blighted properties and provide housing and 
infrastructure for Houstonians. Additionally, 16.77 percent of 
the nondisaster CDBG funding we received was used to provide 
public services, such as aid to the homeless and victims of 
domestic violence, and programs designed to improve job 
opportunities and assist at-risk youth to focus on their 
education. We also used the program to construct public 
facilities such as health clinics, food pantries and a charter 
school. Finally, we used the program to improve infrastructure 
to reduce risks of flooding in inner-city communities.
    As mentioned in my hearing, should I be confirmed, I pledge 
to use whatever resources may be entrusted to me wisely and 
effectively.
                                ------                                


    RESPONSE TO WRITTEN QUESTIONS OF SENATOR REED FROM NEAL 
                            RACKLEFF

Q.1. In reviewing your nominations materials, I was pleased to 
read about your experience in using the Community Development 
Block Grant (CDBG) program, which President Trump has proposed 
zeroing out for FY 18. This would be a $3 billion cut overall 
and a $15.2 million cut for Rhode Island in 2018. Please 
describe your personal experience working with CDBG. In 
particular, I would like to learn more about how you used CDBG 
to overcome a food desert in Houston.

A.1. In Houston, we used the CDBG grant funds we received 
effectively to promote community development, eliminate blight, 
repair and replace housing damaged from weather disasters and 
to provide public services and facilities to Houstonians in 
need. Nearly all the CDBG funding expended on housing did not 
come from traditional annual CDBG grants but rather from 
special congressional appropriations related to disasters.
    The traditional CDBG funding the city received was reduced 
dramatically during my tenure. In 2011, Houston received $35.8
million in CDBG funding. By 2015 that amount had dwindled to 
$22.9 million--a 36 percent reduction.
    Regarding overcoming a food desert in Houston, we 
incentivized the development of a brand new grocery store in an 
area considered a food desert. Total development cost for the 
store was $4.9 million. We provided a $1.9 million CDBG grant 
to help make the project economically viable. The grocer was 
required to do the following: 1) create 25 full-time equivalent 
jobs; 2) properly maintain the store; and 3) include a 
specified amount of linear shelf space stocked with fresh 
fruits and vegetables and other nutritious groceries designed 
to ensure the store would be a grocery store rather than a 
convenience store. If the owner adhered to these requirements 
the grant would burn off at a rate of 10 percent annually, but 
if the conditions were violated then the balance of the grant 
would convert to a repayable loan with interest, amortized over 
15 years. This ``clawback'' mechanism was instituted to ensure 
the city received the benefit of the incentive after it was 
provided to the owner.

Q.2. Also in your nominations materials, you made reference to 
a fair housing situation in Houston in which you helped 
negotiate a win-win solution. Could you please provide 
additional details?

A.2. When I became Director of the Department of Housing and 
Community Development, the city of Houston was struggling to 
comply with the terms of a previous Hurricane Ike CDBG-DR Round 
1 grant. The single family component was behind schedule. We 
got it back on track and completed. Additionally, Houston was 
chosen to receive a Round 2 grant of an additional $178 
million. Fair Housing advocates had litigated against the State 
of Texas and with HUD regarding the disposition of these funds. 
They had a Conciliation Agreement with HUD and the State of 
Texas allowing them significant influence over how and where 
such funding could be spent. They threatened to sue the city of 
Houston if we did not comply with their desires to focus the 
$178 million in areas they considered ``high opportunity'' 
rather than in inner-city neighborhoods that had concentrations 
of minority and low-income residents. I felt strongly that we 
should not turn our backs on the very inner-city communities 
HUD was created to strengthen. So, we were at a significant 
impasse. I was faced with a choice--litigate the matter--which 
could easily take 3 to 5 years, during which time none of the 
families we were entrusted with serving would receive any help, 
or instead try to find common ground and negotiate a solution 
allowing us to use the resources entrusted to us to help those 
we serve as quickly as possible.
    I chose to negotiate. We brought the activists and 
grassroots housing proponents to the table and found common 
ground. We proposed that rather than moving families out of the 
neighborhoods they loved and away from their families, churches 
and other support groups and institutions, that we should focus 
our resources on two to three specific inner-city communities 
and rather than just doing housing in a vacuum, we would 
dedicate other resources to improve infrastructure and promote 
economic development. The advocates agreed with this approach. 
So, together we conducted a comprehensive planning, market and 
demographic analysis to
target communities where gentrification was likely. We wanted 
to use our resources to jumpstart revitalization of these areas 
but also ensure that high quality affordable homes would be in 
such neighborhoods to avoid displacement of lower-income 
families as the tide of gentrification swept over these 
historically underserved neighborhoods. We involved the 
community in choosing the areas to a degree never done before 
in Houston. We had 13 public meetings with over 500 
unduplicated participants to refine our focus on the right 
communities. Then I went with the activists to the State of 
Texas officials responsible for the program and we received 
permission to proceed. Four out of five of the multi-family 
developments we proposed are under construction, and I believe 
all the single-family homes have been completed. In contrast, 
most of the other local governmental entities in the Houston 
area did not choose to bring the activists to the table and are 
still trying to work through issues that will allow them to 
eventually proceed with their desired projects.
                                ------                                


  RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM NEAL 
                            RACKLEFF

Q.1. The President's FY 2018 budget request included the 
proposed elimination of the Community Development Block Grant 
program and the HOME Investment Partnership Program. When asked 
about these proposed eliminations during your nomination 
hearing, you confirmed that these programs demonstrated a 
measurable impact in Houston.

Q.1.a. If this budget were to be enacted in its current form, 
would it increase housing instability and homelessness?

A.1.a. If Congress funds HUD at the level proposed in the 
President's FY 2018 budget, it would take some time for HUD to 
spend down the existing unobligated budget authority. If 
Congress maintains this level of funding beyond the short term, 
these are concerns that will need to be monitored.

Q.1.b. Do you support the elimination of the Community 
Development Block Grant program as proposed in the budget? If 
you do support the budget, please explain what specific 
alternative funding mechanisms will be provided to States, 
cities, and localities to fill the void created by the 
elimination of the program.

A.1.b. I'll be the first to tell you that in Houston we saw the 
positive outcomes that occur when a city uses CDBG funds in an 
efficient and effective manner. But I also know that where we 
used CDBG wisely, many other localities do not. Instead, they 
use these precious dollars to plug budget holes. As the 
President's nominee, I of course support the Administration's 
proposed budget, which balances priorities across the Federal 
Government. If confirmed, I will bring my many years of 
experience as a housing practitioner who used CDBG funding to 
achieve successful outcomes in Houston to future internal 
budget deliberations.

Q.1.c. Do you support elimination of the HOME Investment 
Partnership program as proposed in the budget? If you do 
support the budget, please explain what specific alternative 
funding
mechanisms will be provided to States, cities, and localities 
to fund the creation of affordable housing for low-income 
households.

A.1.c. As I noted in the above answer, as the President's 
nominee, I support the Administration's proposed budget. HOME 
is a program with which I have extensive experience, and we had 
great success with it in Houston. I also know the program has 
been criticized for misuse of funds. And the prior 
Administration made reductions to HOME as well. As I stated at 
my confirmation hearing, if confirmed, I will faithfully 
administer any Federal funds with which I am entrusted by 
Congress. I also will work with the Congress, State and local 
governments, and private sector partners to identify mechanisms 
and means to support the development and preservation of 
affordable housing.

Q.2. The U.S. Interagency Council on Homelessness (USICH) is an 
independent agency tasked with coordinating the Federal 
response across 19 Federal member agencies to address 
homelessness. In 2010, USICH spearheaded the Federal 
Government's first comprehensive strategic plan to prevent and 
end homelessness. Since that time, there has been an overall 
reduction in nationwide homelessness by 14 percent, family 
homelessness by 23 percent, chronic homelessness by 27 percent, 
and veteran homelessness by 47 percent. The President's FY 2018 
budget outline proposes to completely eliminate funding for the 
USICH.

Q.2.a. Do you support the elimination of the U.S. Interagency 
Council on Homelessness as proposed in the budget? If you do 
support the budget, please explain how States, cities, and 
localities will fill the void created by the elimination of 
this independent agency.

A.2.a. HUD is committed to working across agencies and State, 
local, and private partners to leverage other programs to end 
homelessness. One of the United States Interagency Council on 
Homelessness' biggest accomplishments was the promotion of 
interagency collaboration to combat homelessness. USICH helped 
pave the way for collaboration across agencies, and now such 
collaboration across agencies has become more common place and 
can continue without a distinct Council.

Q.2.b. CPD plays an important role in fighting homelessness by 
administering HUD's homeless assistance programs, which provide 
grants to aid State and community efforts to prevent and end 
homelessness. How would the elimination of the U.S. Interagency 
Council on Homelessness affect the progress made in ending 
homelessness?

A.2.b. As I stated above, I believe HUD is well positioned to 
continue collaborating with other departments and agencies to 
combat homelessness.
                                ------                                


  RESPONSE TO WRITTEN QUESTIONS OF SENATOR HEITKAMP FROM NEAL 
                            RACKLEFF

Q.1. HUD Budget: As the Assistant Secretary for Community 
Planning and Development, you will oversee many important 
programs that were eliminated in the Administration's FY 18 
budget, including CDBG, the HOME program, and the Housing Trust 
Fund. These programs are so important to North Dakota's
communities. When the budget blueprint was first released 
earlier this year, I reached out to city and State officials in 
North Dakota to get a complete picture of where they used these 
funds and received an overwhelming response imploring me to 
speak up for these programs. As you know from working with CDBG 
in Texas, those funds alone are used for everything from dental 
centers for the disadvantaged to senior centers to affordable 
housing for families.
    You maintained in your nomination hearing that you support 
the Administration's proposed elimination of these programs. 
While it is the job of Congress to determine the budget, are 
you prepared to be an advocate for these programs?

A.1. Senator, I can commit to you that whatever resources 
Congress sees fit to provide to HUD's Office of Community 
Planning and Development, I will utilize those resources wisely 
and effectively. Furthermore, if confirmed, I will bring my 
many years of experience as a housing practitioner who used 
CDBG funding to achieve successful outcomes in Houston to 
future internal budget deliberations.

Q.2. Transitional Housing: In recent years, HUD has strongly 
favored the ``housing first'' model--prioritizing rapid 
rehousing over transitional projects. While rapid rehousing can 
be effective for many cases of homelessness, transitional 
housing with built-in services like substance abuse counseling 
and job training still serves an important purpose for specific 
targeted groups, including victims of domestic violence, at-
risk youth, individuals struggling with substance abuse 
(including opioids), and the recently incarcerated. As the head 
of CPD, you will oversee many of HUD's homelessness programs.
    I appreciated that you mentioned transitional housing in 
the hearing and look forward to working with you to improve 
transitional housing policy should you be confirmed. Can you 
tell me more about your opinion on transitional housing as it 
fits into the arsenal of housing and intervention options for 
combating homelessness in our most vulnerable communities?

A.2. HUD has focused its allocation of resources to alleviate 
homelessness on those programs and agencies that have yielded 
the most successful outcomes. That emphasis on results has, in 
my opinion, been a significant reason for the emphasis on the 
housing first model. However, transitional housing programs are 
also often very effective in alleviating homelessness and 
providing effective and compassionate assistance for groups, 
such as victims of domestic violence and those struggling with 
substance abuse challenges.
    I advocate a balanced approach in which both housing first 
and transitional housing models are employed. In Houston, we 
supported both models. For example, we funded transitional 
housing projects for a group formerly called ``The Men's 
Center'' which has been renamed ``Recenter'' (http://
recenterhouston.com) and for a wonderful organization called 
The Women's Home (https://www.thewomenshome.org/).
                                ------                                


  RESPONSE TO WRITTEN QUESTION OF SENATOR BROWN FROM RICHARD 
                             ASHOOH

Q.1. You will be overseeing a sensitive area of the Bureau of 
Industry and Security's national security and nonproliferation 
work, including remaining issues on the export control reform 
initiative undertaken by the prior Administration. Beyond 
completing that reform initiative, what are the main national 
security priorities you will bring to this position, and how do 
you intend to pursue them? What do you see as the major 
challenges in this area--i.e., what will keep you up at night--
in terms of your national security portfolio?

A.1. Existing challenges to our Nation's security, such as WMD 
proliferation, will continue to occupy BIS as a top priority 
concern. If confirmed, I will devote serious attention to 
cybersecurity software and emerging technologies. Their dual 
use nature creates a more complex challenge for our regulatory 
system. Further, the rapid and often secretive pace of 
advancement of emerging technologies places pressure on BIS to 
remain ahead of these threats in ways conventional weapons have 
not in the past.
                                ------                                


RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM RICHARD 
                             ASHOOH

Q.1. What changes can we expect from BIS regarding new Cuba 
regulations the Administration announced in June?

A.1. It is my understanding that BIS anticipates incorporating 
a reference to a list to be published by the Department of 
State that will identify certain entities and sub-entities that 
are under the control of, or act on behalf of the Cuban 
military, intelligence or security services. I further 
understand that BIS anticipates revising lists of officials of 
the government of Cuba that are ineligible for certain license 
exceptions to correspond with the revised definition of 
``prohibited officials'' to be published by the Department of 
the Treasury.

Q.2. Can you ensure that new regulations will prohibit the 
export of goods and services that directly benefit the Castro 
regime, the Cuban military, or Cuban state-owned enterprises?

A.2. Current BIS regulations include a general policy of denial 
for the export or reexport of items to the Cuban military, 
police, intelligence and security services. A general policy of 
denial is also in place for the export or reexport of items for 
use by Cuban state-owned enterprises, agencies, and other 
organizations that primarily generate revenue for the state, 
including those engaged in tourism and those engaged in the 
extraction or production of minerals or other raw materials. If 
confirmed, I will ensure that BIS will continue to work with 
the Department of State and other interagency partners to 
implement the President's Cuba policy through its licensing 
process.

Q.3. When will we see finalized Cuba regulations?

A.3. It is my understanding that BIS has initiated the process 
to review and adjust, as necessary, the current regulations 
regarding exports to Cuba. This process is being coordinated by 
the National Security Council. I am informed that BIS is 
working closely with interagency partners, including the 
Departments of State and the Treasury, to ensure that it 
promptly implements the President's Cuba policy, and expects to 
publish any necessary changes in the coming months.
                                ------                                


 RESPONSE TO WRITTEN QUESTION OF SENATOR BROWN FROM ELIZABETH 
                           ERIN WALSH

Q.1. You will be managing a broad portfolio of export promotion 
and efforts to encourage foreign investment into the United 
States at the ITA in Commerce, working with hundreds of 
Commerce employees and foreign service officers in embassies 
all over the world to promote U.S. products, services and job 
creation. Should you be confirmed, what do you see as the major 
challenges facing you both in pressing entry for U.S. firms 
into foreign markets and in promoting foreign investment in the 
United States--and what will be your priorities and strategy 
going forward in managing those challenges?

A.1. U.S. exports face significant challenges in many markets. 
The causes of market obstruction and closure are numerous 
including: high tariffs; subsidies provided to foreign 
producers giving them unfair advantage over their U.S. 
competitors; blocking or unreasonably restricting the flow of 
digital data and services; theft of trade secrets; as well as 
other nontariff barriers--such as unnecessary regulations on 
particular items--to limit competition, including in the 
services sector.
    If confirmed, I will work tirelessly to increase exports by 
breaking down long-standing trade barriers and fostering 
increased access for American goods in foreign markets. I 
intend to work closely with my colleagues within ITA and the 
Secretary to use all possible tools to encourage other 
countries to give U.S. producers fair, reciprocal access to 
their markets.
    In addition, if confirmed, I intend to focus on improving 
efficiency. I believe Global Markets will need to rely on 
technology to deliver services efficiently to exporters to 
achieve this goal.
                                ------                                


    RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM 
                      ELIZABETH ERIN WALSH

Q.1. Our competitors around the world are dedicating greater 
resources toward economic diplomacy and are aggressively 
helping their companies increase exports. Unfortunately, U.S. 
companies cannot count on the same level of support from the 
U.S. Government. Too often, this dynamic prevents American 
firms from competing on a level playing field, and as a result, 
we export less and fail to capitalize on valuable opportunities 
in foreign markets. The Administration's budget will make this 
situation even worse. It threatens to cut 38 Foreign Commercial 
Service Officer positions and close 10 domestic and 35 overseas 
offices. This is going to make it more difficult for American 
companies who want to export and need advocates in foreign 
markets to promote the value of U.S. goods and services.

Q.1.a. How is this budget approach consistent with the 
Administration's goal of reducing the trade deficit?

A.1.a. The Administration's budget places a greater emphasis on 
enforcement of trade laws as a means to ensure a level playing 
field. All of Global Markets including the United States and 
Foreign Commercial Service will continue its mission of 
advocating for U.S. business abroad in as many key markets as 
possible.

Q.1.b. Which foreign offices does the Administration plan to 
close?

A.1.b. Due to my pending confirmation, I have not been a part 
of any conversation related to specific closures and am unable 
to answer this question.

Q.1.c. In the past, I have called for deploying more FCS 
officers to Latin America. Do you agree that Latin America 
represents a largely untapped opportunity for increased U.S. 
exports and should be a priority area of expansion for the 
Foreign Commercial Service?

A.1.c. I share your opinion that Latin America presents 
important growth opportunities for the United States. The 
President has met with many of his counterparts in the region. 
That the United States is seeking to bring the NAFTA into the 
21st century demonstrates the Administration's commitment to 
the Americas. Modernizing and rebalancing our trading 
relationship with Mexico is an important first step in further 
expanding opportunities for U.S. exports in Latin America.

Q.2. You noted in your testimony that last year, for every $1 
appropriated to the Office of Global Markets $192 was returned 
to the American economy through increased exports and foreign 
direct investment, which supported approximately 300,000 U.S. 
job. Given that multiplier effect, what do expect to be the 
impact on exports, foreign direct investment, and U.S. jobs, of 
the Administration's proposed cut of over $43 million for 
Global Markets?

A.2. If confirmed, this will be my top concern. As part of this 
statistic, I was attempting to underscore how important I 
believe it is that Global Markets will need to partner with 
technology to deliver services efficiently to exporters. I do 
not yet know the impact of Global Market's future efforts to 
improve efficiency nor the proposed cuts on the Return on 
Investment of taxpayer dollars.
                                ------                                


RESPONSE TO WRITTEN QUESTION OF SENATOR BROWN FROM CHRISTOPHER 
                            CAMPBELL

Q.1. One of your responsibilities will be to advise the 
Secretary in his capacity as the administrator of the 
Multiemployer Pension Rehabilitation Act, and his capacity as a 
member of the board of the Pension Benefit Guarantee 
Corporation. What actions do you propose the Administration 
take to address the crisis confronting multiemployer pensions?

A.1. Multiemployer pension plans are facing serious issues and 
I understand that Treasury has been meeting with relevant 
stakeholders to discuss these issues. If confirmed, I am 
committed to working with Congress and other stakeholders to 
develop a fiscally responsible solution to these issues.
                                ------                                


     RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY FROM 
                      CHRISTOPHER CAMPBELL

Q.1. Mr. Campbell, in your role, you will work to appropriately 
regulate American financial institutions. Currently, our 
financial regulatory regime is far too burdensome for small and 
regional financial institutions, which pose much less risk than 
larger institutions to the American economy. Regulations must 
be tailored to appropriately reflect a financial institution's 
risk. For example, I have advocated for raising the $50 billion 
asset threshold for enhanced prudential standards required by 
Section 165 of Dodd-Frank, while also maintaining a criteria 
based system that takes into account the institution's assets 
and unique features.

  <bullet>  In your opinion, would such reforms benefit our 
        financial system?

  <bullet>  Under your leadership, in what ways will Treasury 
        prevent redundant and nontransparent financial 
        regulations?

A.1. I agree that an appropriately tailored regulatory regime 
is a critical element of an effective financial system. I think 
there are a number of important changes that can be made to 
improve the current tailoring of regulations, particularly for 
smaller and less complex regional and community banks.
    Amending the $50 billion asset threshold for enhanced 
prudential standards required by Section 165 of Dodd-Frank and 
replacing it with a more tailored approach should result in a 
number of improvements to the regulation of our financial 
system: removing excessive regulations for less complex 
regional banks so that they may better focus time and resources 
on lending and serving customers; addressing inappropriate 
incentives for smaller banks created by the current asset 
thresholds; and allowing for a better allocation of regulators' 
time and resources.
    As the recent Treasury report on Core Principles for 
financial regulation makes clear, after 7 years of continuous 
rulemaking, it is time for a rationalization of regulations. 
The Treasury report outlines a number of ideas to make our 
regulatory system less redundant and more transparent, which 
can be implemented through a combination of legislation as well 
as administrative action by the financial regulatory agencies.
    If confirmed, I look forward to working with the team at 
Treasury, Members of Congress, and our Federal and State 
regulators to improve our financial system by further tailoring 
regulations and preventing redundant and opaque rulemakings.
                                ------                                


 RESPONSE TO WRITTEN QUESTION OF SENATOR REED FROM CHRISTOPHER 
                            CAMPBELL

Q.1. Following President Trump's Meeting with Russian President 
Vladimir Putin on the sidelines of the G20 Summit, he delivered 
the following statement via Twitter: ``Putin & I discussed 
forming an impenetrable Cyber Security unit so that election 
hacking, & many other negative things will be guarded.'' Later 
that day, he followed up with this statement, also via Twitter: 
``The fact that President Putin and I discussed a Cybersecurity 
unit doesn't mean I think it can happen. It can't . . .'' 
Secretary Mnuchin, however, has also expressed support for the 
President's original idea of cybersecurity cooperation between 
the United States and Russia. During your confirmation hearing, 
Ranking Member Brown asked you to commit that the Treasury 
Department's cybersecurity organization, which would be under 
your purview if you are confirmed, will not establish any such 
cooperative unit with Russia. You did not provide a clear, yes 
or no answer to Ranking Member Brown's question. Will you 
please answer, in yes or no terms, whether you will commit that 
the Treasury Department's cybersecurity organization that would 
be under your control if you are confirmed by the Senate, will 
not establish or participate in any joint cybersecurity program 
with the Russian government?

A.1. It is my understanding that the Administration has made 
supporting the security and resiliency of the U.S. financial 
system, and reducing the risk of a significant cybersecurity 
incident impacting the financial sector, a key priority. I 
believe that effective coordination with other countries, where 
those discussions can yield positive results, is an important 
part of this work.
    If confirmed, I will work with the staff at Treasury to 
pursue appropriate and productive international engagements 
that support and promote effective cybersecurity and ensure all 
American interests are properly protected.
                                ------                                


    RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM 
                      CHRISTOPHER CAMPBELL

Q.1. Have you discussed housing finance reform with any member 
of the Administration? If so, can you provide an overview of 
the Administration's specific priorities on housing finance 
reform?

A.1. I am aware that housing finance reform is a priority of 
the Treasury and of the Administration. As Secretary Mnuchin 
has stated publicly before this Committee, our housing finance 
policy should promote borrower access to mortgage credit while 
protecting taxpayers from costly bailouts. I understand that 
Treasury is engaging with stakeholders inside and outside the 
Government in advance of developing housing principles and 
providing recommendations.

Q.2.a. Throughout his time on the campaign trail, the President 
highlighted neighborhoods and communities throughout the 
country that seldom reap the benefits of economic expansion but 
are reliably and disproportionately burdened by economic 
downturns. Community Development Financial Institutions (CDFIs) 
have stepped up for the better part of a century to inject 
capital, create jobs, and provide mortgage credit, small 
business loans, and banking services in these forgotten 
communities. In 2016 alone, CDFIs made over 39,000 loans and 
investments totaling more than $3.6 billion, financed over 
11,000 small businesses and over 33,000 affordable housing 
units.
    As Assistant Secretary for Financial Institutions, the CDFI 
Fund will fall directly under your oversight. Do you support 
the elimination of the CDFI fund as proposed in the budget? If 
you do support the budget, is it your conclusion that we no 
longer need to
promote access to capital and economic growth in economically 
distressed areas?

A.2.a. My understanding is that the CDFI Fund budget eliminates 
discretionary grant funding to reflect the Administration's 
priority to support fiscal responsibility and to focus 
resources on activities that promote national security and 
public safety.
    However, the budget continues to provide funding for the 
CDFI Fund to continue to operate the nongrant programs, like 
the New Markets Tax Credit Program, which provide support for 
CDFIs and other community organizations lending and investing 
in economically distressed communities across the country. 
Since 2001, the New Markets Tax Credit Program has allocated 
$50.5 billion in tax credits in urban and rural areas.
    The budget also proposes to reauthorize the Bond Guarantee 
Program to allow $500 million in new guarantees in FY 2018. 
This program provides capital to CDFIs, at no cost to the 
taxpayer.

Q.2.b. Assuming Congress rejects the Administration's request 
to eliminate the CDFI Fund, what will you do to ensure that the 
CDFI Fund has the tools and resources it requires to continue 
providing funds and technical assistance to CDFIs throughout 
the country?

A.2.b. If confirmed, I will work with the team at Treasury to 
be sure that all CDFI programs are operating consistent with 
all applicable laws, rules, and Administration policies.
              Additional Material Supplied for the Record
     LETTERS SUBMITTED IN SUPPORT OF THE NOMINATION OF PAUL COMPTON
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                        
                             [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
